<html>
<title> - EFFECTIVE COMMUNITY INVOLVEMENT IN NATIONAL FOREST RESTORATION AND RECREATION EFFORTS: OBSTACLES AND SOLUTIONS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





  EFFECTIVE COMMUNITY INVOLVEMENT IN NATIONAL FOREST RESTORATION AND 
              RECREATION EFFORTS: OBSTACLES AND SOLUTIONS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 29, 2001

                               __________

                           Serial No. 107-10

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
71-408                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 29, 2001...................................     1

Statement of Members:
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     9
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Brendler, Thomas, Executive Director, National Network of 
      Forest Practitioners.......................................    18
        Prepared statement of....................................    19
    Collins, Sally, Associate Deputy Chief, National Forest 
      System, Forest Service, U.S. Department of Agriculture.....     7
    Enzer, Maia, Program Officer, Sustainable Northwest..........    25
        Prepared statement of....................................    27
    KenCairn, Brett, Director, Indigenous Community Enterprises..    33
        Prepared statement of....................................    35
    Madrone, Sungnome, Director, Natural Resources Services of 
      Redwood Community Action Agency............................    38
        Prepared statement of....................................    39
    Phillips, Randy, Deputy Chief for Programs and Legislation, 
      Forest Service, U.S. Department of Agriculture.............     3
        Prepared statement of....................................     4
    Ward, Bruce, Executive Director, Continental Divide Trail 
      Alliance, Inc..............................................    43
        Prepared statement of....................................    44

Additional materials supplied:
    Schen, David C., Utah Division of Forestry, Fire & State 
      Lands, and Kostelnik, Kim, New Mexico Forestry Division, 
      Paper submitted for the record.............................    53
    Schen, David C., Utah Division of Forestry, Fire & State 
      Lands, and Steed, Ruth, TreeUtah, Paper submitted for the 
      record.....................................................    54

 
  EFFECTIVE COMMUNITY INVOLVEMENT IN NATIONAL FOREST RESTORATION AND 
              RECREATION EFFORTS: OBSTACLES AND SOLUTIONS

                              ----------                              


                        Thursday, March 29, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
Room 1324, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.
    Mr. McInnis. Good morning. The Subcommittee on Forests and 
Forest Health will come to order.
    The Subcommittee is meeting today to hear testimony on 
effective community involvement in National Forest restoration 
and recreation efforts: obstacles and solutions.
    Under Committee Rule 4g, the Chairman and the Ranking 
Minority Member can make opening statements. If any other 
Members have statements, they can be included in the hearing 
record under unanimous consent.

 STATEMENT OF THE HONORABLE SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. I have watched, as many of you have watched, 
communities being torn apart by the raging resource battles 
that have become almost commonplace in towns across rural 
America. While these issues, in themselves, are contentious, 
they are made even more so by the legal and administrative 
structures that are currently in place.
    The forest planning process, for example, is structurally 
polarizing. Typically, the Forest Service develops a range of 
planning alternatives, then releases them to the public for 
comment, basically leaving the different factions in the 
community with no choice but to fight like hell for their 
alternative. This pits neighbor against neighbor in an 
unconstructive winner-take-all process, leaving communities 
polarized and ultimately disenfranchised from the forests 
surrounding them. Instead of promoting collaboration and 
consensus, these processes invite conflict and cynicism.
    In recent years, we have begun to see some attempts to find 
better ways of dealing with these contentious issues. These 
efforts have come in a number of different forms, some being 
assisted by the Forest Service in the form of stewardship 
contract pilots, some by the States, such as the Blue Mountain 
demonstration area in Oregon, and some by Congress, as in the 
resource advisory committees created in the recently passed 
county payments law. But most of these partnerships have been 
initiated by the communities themselves, exhausted from battle, 
in search of processes that promote inclusive and peaceful 
collaboration.
    Unlike the ``hired guns'' in Washington, who are paid to 
fight, it makes sense for communities to try and solve these 
issues for themselves. While folks in these communities may 
disagree on some issues, their children go to the same schools, 
they hike on the same trails and fish the same rivers. They 
have many needs in common, and are more likely to find creative 
solutions than are others that live hundreds, sometimes 
thousands, of miles away.
    The purposes, therefore, of today's hearing is to explore 
opportunities for and barriers to community-based forestry, 
with a focus on what Congress can do to reduce conflict and 
confrontation while promoting constructive and inclusive 
problem-solving processes.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    I've watched, as many of you have watched, communities being torn 
apart by the raging resource battles that have become almost 
commonplace in towns across rural America. While these issues, in 
themselves, are contentious, they are made even more so by the legal 
and administrative structures that are currently in place. The forest 
planning process, for example, is structurally polarizing. Typically, 
the Forest Service develops a range of planning alternatives then 
releases them to the public for comment, basically leaving the 
different factions in the community with no choice but to fight like 
hell for ``their'' alternative. This pits neighbor against neighbor in 
an unconstructive winner-take-all process, leaving communities 
polarized and ultimately disenfranchised from the forests surrounding 
them. Instead of promoting collaboration and consensus, these processes 
invite conflict and cynicism. In recent years we have begun to see some 
attempts to find better ways of dealing with these contentious issues. 
These efforts have come in a myriad of forms, some being assisted by 
the Forest Service in the form of stewardship contract pilots, some by 
the states, such as the Blue Mountain Demonstration Area in Oregon, and 
some by Congress, as in the resource advisory committees created in the 
recently passed county payments law. But most of these partnerships 
have been initiated by the communities themselves, exhausted from 
battle, in search of processes that promote inclusive and peaceful 
collaboration.
    Unlike the hired guns in Washington who are paid to fight, it makes 
sense for communities to solve these issues for themselves. While folks 
in these communities may disagree on some issues, their children go to 
the same schools, they hike on the same trails and fish the same 
rivers, they have many needs in common, and are more likely to find 
creative solutions than are others that live hundreds, sometimes 
thousands, of miles away.
    The purpose, therefore, of today's hearing is to explore 
opportunities for, and barriers to, community-based forestry, with a 
focus on what Congress can do to reduce conflict and confrontation 
while promoting constructive, and inclusive, problem solving processes.
                                 ______
                                 
    Mr. McInnis. The Ranking Member is not here. When the 
Ranking Member comes, I will give him an opportunity to make an 
opening statement. We will go ahead and proceed forward.
    I would now like to introduce our witnesses. On panel one 
we have Mr. Randy Phillips, Deputy Chief of Programs and 
Legislation, U.S. Department of Agriculture's Forest Service, 
and Miss Sally Collins. She is the Associate Deputy Chief of 
the National Forest System, USDA Forest Service.
    I will remind the witnesses that under our Committee rules 
you must limit your statements to a period of 5 minutes, but 
your entire statement will appear in the record. The timer 
there indicates where you are on your time.
    I now recognize Mr. Phillips for a statement. Mr. Phillips, 
I appreciate both you and Miss Collins' effort to come and make 
your presentation in front of the Committee. You may proceed, 
Mr. Phillips.

  STATEMENT OF RANDY PHILLIPS, DEPUTY CHIEF, FOREST SERVICE, 
 UNITED STATES DEPARTMENT OF AGRICULTURE; ACCOMPANIED BY SALLY 
 COLLINS, ASSOCIATE DEPUTY CHIEF, NATIONAL FOREST SYSTEM, USDA

    Mr. Phillips. Thank you, Mr. Chairman. I want to thank you 
and this Committee for the opportunity to discuss Forest 
Service efforts in working with local communities and 
partnerships to accomplish natural resource objectives.
    With me today is Sally Collins, Associate Deputy Chief of 
the National Forest System. I will make a few brief comments 
and then ask Sally to do the same, and ask that the written 
testimony be included in the record, with your permission.
    Mr. Chairman, many factors over the last several years have 
led to a decline in the traditional uses of national forest 
lands. As a result, communities that have relied on these 
traditional uses as a significant component of their economies 
have struggled to retain their vitality and resilience.
    Our local forest managers have turned to new tools and 
methods to maintain the health of the forests and to involve 
the local communities in natural resource decisions that affect 
them. These changing conditions have been the catalyst for many 
success stories of communities and local forest managers 
working together to improve the health of the land and their 
communities. We would like to share with you today some of 
those success stories, and discuss challenges that lie ahead 
for us in the future.
    There are many examples of community partnerships as we 
look across this country. No two are alike, and they are unique 
in their makeup and their objectives.
    For example, in October 1998, Congress passed the Herger-
Feinstein Quincy Library Forest Recovery Act. This Act 
implements an agreement by a coalition of representatives of 
fisheries, timber, environmental, county government, citizen 
groups and local communities that formed in northern California 
to develop a resource management program that promotes 
ecological and economic health for national forest lands and 
communities in the Sierra Nevada area.
    In the Blue Mountains of Oregon, there are more than 40 
partners working together to achieve shared goals of forest 
restoration, community economic and social health, transfer of 
scientific knowledge, and working together in a collaborative 
manner.
    Also, Congress greatly added to the ability of the agency 
to work with partnerships for natural resource and community 
benefits through the National Fire Plan. Congress has directed 
the agency seek the advice of governors and local tribal 
governments, representatives, in setting priorities for fuels 
treatment, burned area rehabilitation, and public outreach and 
education.
    Funding for the implementation of the National Fire Plan 
affords the Forest Service many opportunities for building new 
partnerships for community assistance and resource protection. 
Title IV of the FY 2001 Interior Appropriations Act provides 
new authorities for the Forest Service to enter into agreements 
that implement fire plan objectives through local businesses 
and cooperatives. In addition, the Four Corners Initiative, in 
which the Forest Service is a major participant through our 
Economic Assistance Program, is building capacity in local 
communities to utilize the small diameter material that much of 
the fuel reduction efforts will generate.
    The 106th Congress also passed the Secure Rural Schools and 
Communities Self-Determination Act, or county payments 
legislation. This landmark legislation allows counties 
containing national forest land to work with local forest 
officials to reconnect their communities to the land that 
sustains them. Counties and local forests are working together 
to solicit nominations for people to serve on the resource 
advisory committees that will make project recommendations to 
local forest officials. These projects will create additional 
opportunities for employment, while making investments that 
restore forest health and water quality.
    Now, along with these opportunities come new challenges. 
Agency teams and others are evaluating the lessons we have 
learned from cooperative approaches to natural resource 
management. These teams will be identifying what changes, if 
any, might be needed in policy, regulation, and statute in 
order to better work together with our many partners and others 
interested in the health of the land and our rural communities. 
We are looking forward to working with this Committee and other 
members of the Subcommittee on ways to improve our partnership 
programs.
    At this time I would like to ask Sally Collins to provide 
some additional comments.
    [The prepared statement of Mr. Phillips with attachment 
follows:]

   Statement of Randy Phillips, Deputy Chief, Forest Service, United 
                    States Department of Agriculture

    Thank you for the opportunity to discuss Forest Service efforts in 
working with local communities to accomplish natural resource 
objectives. I am Randy Phillips, Deputy Chief for Programs and 
Legislation, USDA - Forest Service. Accompanying me today is Sally 
Collins, Associate Deputy Chief for the National Forest System. 
Involving communities in national forest management activities is a 
long-standing tradition in the Forest Service.
    Many factors over the last several years have led to a decline in 
the traditional uses of national forest lands. As a result, communities 
that have relied on these traditional uses as a significant component 
of their economies have struggled to retain their vitality and 
resilience. Our local forest managers have turned to new tools and 
methods to maintain the health of the forests and to involve the local 
communities in natural resource decisions that affect them. These 
changing conditions have been the catalyst for many success stories of 
communities and local forest managers working together to improve the 
health of the land and their communities. I would like to share with 
you today some of those success stories.

Ponderosa Pine Forest Partnership
    The Ponderosa Pine Forest Partnership effort in southwest Colorado 
involving forest managers and users, neighbors and interested citizens 
is one such story. The San Juan National Forest has been working with 
communities of interest in Montezuma County, Colorado to create a new 
model for improving the condition of ecosystems while sustaining small, 
rural timber businesses considered as necessary tools to perform the 
work of forest restoration.
    The Pine Zone Partnership, as the Ponderosa Pine Forest Partnership 
is informally called, traces its formation back to 1992 when its 
original members, representatives from Montezuma County, Colorado, the 
San Juan National Forest, Fort Lewis College, and the Colorado Timber 
Industry Association, met in the forest near Dolores, Colorado to 
discuss ecosystem health and the declining state of the local timber 
industry. Drawing on the authorities and technical support of the 
Forest Service economic action programs, the partnership has operated 
through the years as an informal network of these and additional 
interests, including individual loggers, and local environmental and 
community activists.From the initial gathering grew a multi-
disciplinary network committed to testing adaptive-management 
techniques in a restoration harvest demonstration. They pooled 
institutional resources to design and conduct a harvesting 
demonstration on the San Juan National Forest where participants could 
conduct ecological research and monitoring, test new harvesting 
utilization techniques, reintroduce fire in its historical ecological 
role, conduct a detailed cost benefit analysis of harvesting, and begin 
researching the development of small-diameter pine products and 
markets.
    The Pine Zone Partnership began producing on-the-ground results in 
1995 by restoring natural characteristics and functions of ponderosa 
pine forests on 493 acres of national forest and adjacent private land. 
Partners thinned even-aged, small-diameter pine stands in order to 
reintroduce fire to its once natural ecosystem role. The results will 
reduce insect, disease, and wildfire risks; re-establish an uneven-aged 
stand structure, improve and increase wildlife habitat, and increase 
plant diversity, as well as help re-establish steady wood supplies.
    While Pine Zone partners sought to integrate ecology and economic 
research with Forest Service administration, management and timber 
harvesting, the new relationships that evolved as they cooperated 
informally and face-to-face are perhaps their greatest accomplishment. 
They were able, through an acceptance of a mutually shared 
responsibility for community and forest sustainability, to restructure 
traditional relationships into new arrangements. As one partner, Dr. 
Dennis Lynch, Professor Emeritus, Colorado State University emphasizes, 
in this partnership ecology drives the economics of forest restoration.

Deschutes Watershed Assessment
    Another success story in working with our local communities is the 
watershed assessment work being done on the Deschutes National Forest 
in Oregon under the leadership of District Ranger Phil Cruz. Large-
scale assessments have focused discussion with local community 
representatives on forest health needs at the watershed level rather 
than on the particular methods used to accomplish individual projects. 
Those interested in natural resource issues now have a context in which 
to place a 100-acre treatment area. Analysis of cumulative effects can 
be more accurately represented and displayed. A spin-off benefit has 
been a more efficient approach for the Forest Service and other 
regulatory agencies in ensuring compliance with NEPA and ESA. There are 
benefits as well as some challenging concerns associated with this 
particular method of planning. In the words of Phil Cruz, Success 
depends upon people and passion. From the interdisciplinary team 
members to the leadership, no one can take a holiday from the process 
or the project.

Challenge Cost-Share Program
    The Challenge Cost-Share Program is another successful example of 
partnering with groups interested in management of our national 
forests. It has provided the Forest Service and our cooperators with a 
means to jointly identify and accomplish recreation management and fish 
and wildlife habitat improvement projects. Begun in 1986, the fish and 
wildlife portion of the program has grown from 57 partners and 120 
projects to 2,500 partners and over 2,800 projects in 1999. In 1999, a 
variety of State agencies and private organizations worked with the 
Forest Service to leverage $16.8 million of appropriated funds into 
$43.4 million of habitat improvement projects benefiting wildlife, 
fish, rare plants, and people. The Forest Service is committed to 
expanding its capacity to work with partners in accomplishing the 
Agency's mission via the Challenge Cost-Share program and other venues, 
and to actively working with partners to identify and remove 
impediments to achieving this objective. Toward this end, the Forest 
Service is working to improve the use of existing authorities and 
reducing the time necessary to formalize partnerships.

Quincy Library Group
    In October 1998, Congress passed the Herger-Feinstein Quincy 
Library Group Forest Recovery Act as Section 401 of the fiscal year 
1999 Interior and Related Agencies Appropriations Act (Public Law 105-
277). This Act implements an agreement by a coalition of 
representatives of fisheries, timber, environmental, county government, 
citizen groups, and local communities that formed in northern 
California to develop a resource management program that promotes 
ecologic and economic health for national forest lands and communities 
in the Sierra Nevada area.

Stewardship Pilot Projects
    Congress has provided us another opportunity to work cooperatively 
with our local communities under Section 347 of the fiscal year 1999 
Omnibus Appropriations Act (Public Law 105-277) and expanded by Section 
338 of the fiscal year 2001 Interior Appropriations Act (Public Law 
106-291). This stewardship pilot provision authorizes the Forest 
Service to test several new processes and procedures including the 
following:
    <bullet> LThe exchange of goods for services;
    <bullet> LThe retention of receipts;
    <bullet> LThe awarding of contracts on a best value basis; and
    <bullet> LThe designation of timber for cutting by prescription.
    Although it is still too soon to tell whether these new authorities 
should be continued beyond the test period, the early results indicate 
that the authorities are providing a new context in which to discuss 
resource management. The pilot projects have enabled the Forest Service 
to bring people to the table to talk about what they leave on the land 
rather than focusing on what they take from the land. Groups involved 
in the pilot projects find that there is common ground. In the words of 
Regional Forester Dale Bosworth, It brings people to the conference 
room rather than the court room.

National Fire Plan
    In addition to the opportunity afforded us through the 1999 Omnibus 
Appropriations Act, Congress greatly added to the ability of the agency 
to work through partnerships for natural resource and community 
benefits through the National Fire Plan.
    The severe fire season of 2000 captured the attention of the 
American people on the need to find ways to protect life and property 
and minimize losses of natural resources. In response, a report 
entitled, Managing the Impact of Wildfires on Communities and the 
Environment, was prepared and released by the Secretaries of the 
Interior and Agriculture in September of 2000 and is referred to as the 
National Fire Plan.
    Based on the recommendations in the report, Congress and the 
Administration increased funding for agency firefighting, fuels 
reduction, resource restoration, and community assistance. The 
Conference Report for P.L. 106-291 directs the Departments of the 
Interior and Agriculture to work closely with States and local 
communities to maximize benefits to the environment and to local 
communities. It directs the agencies to seek the advice of the 
Governors and local and tribal government representatives in setting 
priorities for fuels treatments, burned area rehabilitation and public 
outreach and education. The Appropriations conferees also directed the 
agencies to work together to develop a list of all communities within 
the vicinity of Federal lands at high risk from fire. Funding for the 
implementation of the National Fire Plan affords the Forest Service 
many venues for building new partnerships for community assistance and 
resource protection. For example, in communities, we are assisting 
State and local partners by providing funding assistance to rural and 
volunteer fire departments to increase local firefighting capacity. We 
are also helping to educate community planners and homeowners through 
partnerships with the States, the National Fire Protection Association, 
and local firefighting organizations to take actions to reduce fire 
risk to homes and private property through a program called FIREWISE. 
Title IV of the fiscal year 2001 Interior Appropriations Act (Public 
Law 106-291) provides new authorities for the Forest Service to enter 
into agreements that implement fire plan objectives through local 
businesses and cooperatives. We also expect implementation of the 
National Fire Plan may create as many as 8,000 new jobs in rural areas 
providing additional economic opportunities for rural forest dependent 
communities. In addition, the Four Corners Initiative, in which the 
Forest Service is a major player through our Economic Assistance 
Program, is building capacity in local communities to utilize the small 
diameter material that much of the fuel reduction efforts will 
generate.

County Payments
    The 106th Congress also passed the Secure Rural Schools and 
Communities Self Determination Act of 2000. This landmark legislation 
allows counties containing national forest land to work with local 
forest officials to re-connect their communities to the land that 
sustains them. Counties can reserve 15 to 20 percent of the historical 
payments they received under the 25 Percent Fund Act to make 
investments on national forest lands, adjacent private lands, or other 
county services. Counties and local forests are working together to 
solicit nominations for people to serve on the Resource Advisory 
Committees that will make project recommendations to local forest 
officials. These projects will create additional opportunities for 
employment while making investments that restore forest health and 
water quality. The counties should receive funds for these projects 
beginning in October, 2001.

Conclusion
    There are many more examples of success stories across the country. 
Agency teams and others are evaluating the lessons we have learned from 
cooperative approaches to natural resource management. These teams will 
be identifying what changes, if any, might be needed in policy, 
regulation, and statute in order to better work together with our many 
partners and others interested in the health of the land and our rural 
communities. We look forward to working with you and the other members 
of the subcommittee on ways to improve our partnership programs.
    This concludes my testimony. I would be glad to answer any 
questions you or other members of the subcommittee may have.
                                 ______
                                 

 STATEMENT OF SALLY COLLINS, ASSOCIATE DEPUTY CHIEF, NATIONAL 
 FOREST SYSTEM, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Collins. Thanks, Randy, and I want to thank you also 
for the opportunity to be here today to talk about partnerships 
and the role that plays in accomplishing work on the ground, 
which is near and dear to my heart.
    Prior to coming to Washington, D.C., a little less than a 
year ago, I was the forest supervisor for 8 years in Deschutes 
National Forest in Oregon, where I came to understand how 
critical partnerships are to the Forest Service and to the 
communities we live in.
    When we have these strong community partnerships, creative 
things happen. They emerge from places that we don't think of 
and that we can't anticipate. It is simply because the Forest 
Service is at the table with people in the community listening 
and talking about what is important to them and to us. 
Together, we're forging ways to solve problems.
    Let me just share a couple of examples with you. The 
Ponderosa Pine partnership effort in southwest Colorado, which 
you may be familiar with, Mr. Chairman, is really a great 
story. The San Juan National Forest, like a lot of forests 
throughout the West, experienced a dramatic shift in the timber 
program in the late 1980's and early 1990, decreasing gradually 
from 76 million board feet a year to close to 12 in 1993.
    People from all different backgrounds and views were 
distressed about these upheavals that were created, with mills 
closing and jobs being lost. There was a lot of social and 
economic turmoil. People saw a growing forest health problem 
and they saw increased fire risks.
    In 1992, Montezuma County, the San Juan National Forest, 
Fort Lewis College and the timber industry in Colorado, decided 
to meet and discuss the problems facing all of the communities 
in the county. The Pine Zone Partnership, which is what it 
became known as, was created that year, and really is an 
example of how communities can improve the conditions of 
ecosystems while at the same time sustaining small, rural 
timber businesses.
    They pooled institutional resources to design and conduct 
harvesting demonstrations on the San Juan National Forest. They 
tested new harvesting utilization techniques, reintroduced fire 
into its historical ecological role, and they conducted a 
detailed cost benefit analysis of harvesting, basically looking 
at researching the development of small diameter pine products 
and markets. Since 1995, they have experienced a lot of 
success, not the least of which is the thinning of small 
diameter material and reintroducing fire into the ecosystem.
    You know, like similar partnerships all across the country, 
the real success is in the restructuring of traditional 
relationships. The culture of collaboration there on problems 
is now firmly in place.
    The second example for me is closer to home. It's on the 
Deschutes National Forest. About 6 years ago, we decided to 
start experimenting with large-scale NEPA documents, looking at 
whole watersheds as part of a single planning effort to 
consider holistically what was needed to restore the land. For 
example, in the Crescent Ranger District, the District Ranger, 
Phil Cruz, conducted planning NEPA and ESA consultation on 
150,000 acres of watersheds. This environmental assessment 
considered the treatments that were needed to restore the 
landscape and included acres of prescribed burning, timber 
harvesting, restoration of streams, and recreation 
opportunities. People could see the context for an individual 
100-acre treatment and understood more clearly the reasons for 
it.
    Consultation on ESA was done at this scale as well, and not 
only did lots of work get accomplished with a single planning 
effort, which saved a lot of time and money, but the planning 
and the proposed actions together made more sense to people. We 
didn't get any appeals, we got no lawsuits, and his outyear 
program was established. His workforce, which is normally 
working on 15 or so different environmental documents, was more 
focused and less frazzled.
    It certainly isn't perfect, and it doesn't work everywhere, 
but it is definitely a tool I think we need to consider, where 
it makes sense to do that.
    Finally, I just want to mention the stewardship pilot 
projects, where Congress provided us, again as Randy said, 
another wonderful opportunity to test some new authorities, 
including the exchange of goods for services, retention of 
receipts, awarding contracts on a ``best value'' basis, and the 
designation of timber for cutting by prescription.
    The early results indicate that the authorities are proving 
that a new context for decision making is being discussed. We 
want to really continue working with you on that.
    So, again, finally, working in partnerships with people 
requires new skills and new incentives. We are really looking 
forward to working with you and doing whatever we can on this. 
Thanks.
    Mr. McInnis. Thank you, Ms. Collins.
    Before going to the panel for questions, I will first yield 
to the Ranking Member, Mr. Inslee, for opening remarks.

  STATEMENT OF THE HONORABLE JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Chairman. My apologies for being 
late. I just have a couple of brief comments.
    I am interested in this issue because I think there is a 
real balancing act for the Forest Service, between adopting 
means of local input and some of the sustainable issues that we 
have, and the recognition that these are national forests and 
serve national purposes, and all 250 million-plus of us have an 
interest in every square foot of each forest.
    That is a difficult balancing act, and I am interested in 
ways to try to improve that, to give local communities the 
sense that they have input into these decisions appropriate to 
their geographical location and the fact that it affects their 
lives, but still maintaining a sense that the Nation has 
ultimate decision-making authority over these areas.
    I am interested in your comments about where friction has 
developed in that regard. I would be interested in the comments 
of all the witnesses today on how to improve that, and also 
particularly where there's been successes and what you think 
the reasons for those successes are, where we had some 
problematic issues in that regard in the past.
    I would also be interested in knowing from all the 
witnesses today of any conflict that has occurred between local 
input and local efforts and our roadless area policy. That's a 
growing concern of some of us.
    With that, Mr. Chair, I appreciate this opportunity to say 
hello this morning. And I may have to listen to some of your 
testimony in writing because I have to leave here in a while. 
Thank you.
    Mr. McInnis. I understand, and appreciate the courtesy, Mr. 
Inslee.
    I'm going to begin the questioning with a couple of brief 
questions. First of all, Mr. Phillips, after working with the 
Blue Mountain Demonstration Area strike team, what 
administrative changes would you recommend be made to create an 
environment where community relationships, like the Blue 
Mountain Demonstration strike team, can better succeed, and 
what modifications are needed in law. That would be my first 
question.
    Let me ask the second so you can answer both of them, one 
after the other.
    Are there any authorities you need, or any that get in the 
way, for the implementation of these types of partnership 
agreements?
    Mr. Phillips. Thank you.
    The strike team that I was responsible for leading went 
into the Blue Mountains back in October of last year--that's 
after visiting the Denver area, the South Platte District, and 
looking at some of the issues there. We went in expecting to 
find a number of statutory problems that the employees were 
wrestling with.
    What we found in many cases was probably our inflexibility 
in using contracting authorities that already exist, and so 
we've been focusing on those kinds of issues, clarifying for 
our contracting officers where they have greater authority, to 
use those existing authorities, if you will. We found a 
tremendous working relationship among the people there.
    It was interesting that everybody I talked to during the 
week I was there agreed that the number one priority should be 
restoration, that the devil was in the details. People had 
different ideas about how that should be accomplished.
    We are still trying to evaluate where we think there is 
some statutory changes that need to be made. We looked very 
closely at NEPA and ESA and found that--we didn't focus on the 
law so much as we did the procedures and the processes that the 
Forest Service, the Fish and Wildlife Service, and National 
Marine Fisheries were using to comply with the law. The report 
I have provided to the Committee details some of the actions 
that need to take place to improve those processes.
    Now, as I mentioned in my testimony, we are, as a part of 
several other efforts, looking across the country to where we 
need some statutory changes. The National Fire Plan is due to 
report back to Congress on May 1st, and that will also include 
some of our ideas.
    Mr. McInnis. Thank you, Mr. Phillips.
    Ms. Collins, my question for you is, given the experiences 
that you've gone through in regards to some of these 
partnerships, what changes in either the statutory or 
regulatory environment would you say are most needed to make 
the community partnerships really viable, both on a community 
and national scale?
    Ms. Collins. That's a great question.
    I spent about an hour and a half yesterday at a meeting 
with some of the speakers who will be following me today. They 
had some good ideas about this, too. I'm excited by the energy 
that I see in that group.
    One of the things that they mentioned that I would say was 
true for me, and I think true for many of the people that were 
working the field, is trying to come up with a mechanism or an 
agreement that allows more flexibility in the contracting end 
of things. We really want to explore the idea of participating 
agreements as opposed to just challenge cost-share agreements. 
Again, that's kind of technical. We need another set of tools 
that will allow more flexible partnerships. I think you will 
hear some of that.
    I think, beyond that, what people really want from us, and 
are expecting from us, is again more administrative and less 
legal in terms of authorities, although some of the legal 
issues could help us, particularly, potentially, some appeals 
reform, which I think we'll be talking about later.
    But what we can do administratively to help people and to 
help these partnerships is working earlier in the process with 
people, encouraging and providing incentives to our employees 
to do this. I think you will hear people say that it's almost 
like a second thing they have to do and not part of what we do 
naturally, organizationally. So all of those kind of things are 
what we're working on and what we need to put some energy into.
    Mr. McInnis. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    A later witness, in part of his testimony, says, ``However, 
Federal land management agencies, particularly the Forest 
Service, is consistently failing to be an effective partner in 
those forest management collaboratives, for the following 
reasons:''
    ``Agency delays and inconclusive planning processes are 
using up the limited supply of volunteer time and hope existing 
and rural communities.''
    ``Long delays in implementing projects are resulting in the 
loss of the limited base of industrial infrastructure left in 
these communities.''
    He goes on, ``Frequent errors and missteps are discrediting 
the notion of community-based conservation, both locally and 
nationally.''
    What do either one of you have to say about that? Do you 
think you are filled with agency delays and inconclusive 
planning processes?
    Mr. Phillips. Well, my experience is really as a forest 
supervisor for many years and as a district ranger, a forest 
supervisor in North Carolina, your neighbor down there.
    There is a planning process we have to go through, and we 
do have right now an appeals process that we have to go 
through. When I talk to a lot of our partners, Congressman, 
they tell me they get frustrated because they come to the table 
and work with us on ideas and try and find solutions, and then 
we have a process that allows people to object to that. It 
creates a delay of as much as 105 days after a decision has 
been made.
    Frequently, those appeals are upheld, in many cases, but it 
does add additional time and resources. In terms of dollars, I 
can't tell you exactly how much it adds to the cost of a 
project.
    Mr. Duncan. Another later witness says the number one 
barrier to private sector investment is the plethora of 
disincentives that are laced throughout the tax codes and the 
permit systems.
    Do you see a plethora of disincentives in your permit 
systems? Do you think that's fair?
    Mr. Phillips. In the permit systems?
    Mr. Duncan. Yes, sir.
    Mr. Phillips. That's difficult for me to answer. I think, 
as Ms. Collins indicated, some more flexibility in creating 
those partnerships, whether it be participating agreements that 
don't necessarily require an exchange of money between 
partners, might add some benefit, some flexibility.
    Mr. Duncan. You know, I think what some of us want to see 
is some balance and common sense brought into these policies, 
instead of always giving in to these extremist groups who don't 
want to cut any trees and who destroy jobs, drive up prices and 
hurt the poor and the working people in the process.
    You know, in my home area of east Tennessee, it's another 
area, but in the late Seventies we had 150 coal companies up 
there, I think it was, and now we've got five. The reason is 
they moved in an Office of Surface Mining. A Federal agency 
moved in.
    When you come in with all these rules and regulations and 
red tape, it first drives out the small companies; then it 
drives out the medium-size companies. So these radical groups 
end up helping extremely big business. But they hurt the little 
man and they hurt the small businesses, and they hurt the poor 
and the working people, because it just drives up prices on all 
these things.
    So what we hope you will do is try to bring some balance 
and common sense into some of these policies, and we've been 
lacking in that for several years now.
    Thank you very much, Mr. Chairman.
    Mr. McInnis. Thank you.
    The gentleman from Colorado, Mr. Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. At this 
time I don't have any questions.
    Mr. McInnis. Mr. Holt?
    Mr. Holt. No questions, Mr. Chairman, at this time.
    Mr. McInnis. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Do you find that the local forestry personnel and so forth 
are engaging in this in a cooperative manner, that they want to 
do this, they like this community-based forestry program, or 
that they are fearful of it?
    Ms. Collins. I think it's mixed. I think, in all honesty, 
there are places where it comes real naturally for people, and 
where you've got leadership that just expects it and it 
happens.
    You also have places where the community has expectations 
that it will happen, and that sort of creates a dynamic that's 
very positive.
    I think one of the things that we've got to do internally 
is not only put leadership in place that supports that and 
encourages that, but that supports their employees to do that 
as well.
    I guess, in response to that question, as well as the 
previous comment, the real value in these partnerships--I mean, 
we have so many examples of them all over the place, they're 
happening everywhere--is the way around red tape. I think this 
is why you're seeing more Forest Service people really 
understanding them. Because partnerships take time. You have to 
maintain them, you have to work with people on a regular basis. 
It's just like any relationship. Relationships take a lot of 
nurturing.
    But you cut through red tape and you cut corners and you 
make your way to solutions in ways that are almost magical. But 
they do take time, and there is that frustration of 
understanding how to maintain those relationships.
    Mr. Simpson. Let me put it this way. In 1996, because of 
the frustration that many people in Idaho felt in dealing with 
Federal agencies, whether it was the Bureau of Land Management 
or the Forest Service or whatever, because of all the red tape 
and all of that that was going on, when I was the Speaker of 
the House and my seatmate here was the Lieutenant Governor, we 
created the Federal Lands Task Force.
    The idea at the time--I should say it was the misperception 
at the time--but the word going around was the state taking 
over management of Federal lands. Over the last 5 years, they 
created this task force and came up with some proposals, not 
for the state to take over management of Federal lands, but for 
the state and local governments and local communities to be 
involved with the Federal Government in managing these Federal 
lands.
    They just published this year--our State Board of Land 
Commissioners and the Federal Lands Task Force sent it to us. 
It has five recommendations for management, cooperative 
management, using different types of models within the State of 
Idaho.
    Have you seen this yet?
    Ms. Collins. I haven't, but I would really like to see it. 
I would be very interested.
    Mr. Simpson. I will make sure that you get a copy of this.
    When it first started, they put together groups of people 
interested in this, and they had people from the environmental 
community on it and so forth. About a third of the way through, 
the environmentalists they had on there dropped out because 
they felt they were outnumbered, I guess, or whatever.
    I would like you to take a look at this and look at some 
recommendations, because we're going to be looking to push this 
through Congress, or at least parts of it, through Congress. I 
would like to know what kind of suggestions you might have that 
might make it work better or whatever. So we will send your 
office a copy of this.
    Mr. Phillips. I've seen parts of that. I know our regional 
forester, and forest supervisors, have also been working with 
the state on this, so they have been engaged with you in this 
process.
    Mr. Simpson. I know that they have some concerns in some 
areas, and I would like to take those into consideration when 
we do anything like this. So I look forward to working with you 
on this, because I do think the best way we can move forward 
with positive land management is to have local communities, 
local people involved with the Federal people, instead of 
having them feel like everything is dictated from Washington, 
D.C. and they have no input in the process. So I look forward 
to working with you on it.
    Thank you.
    Mr. McInnis. Ms. McCollum, you will accept my apologies. I 
got out of order here. You're next.
    Ms. McCollum. That's fine, Mr. Chair. Thank you.
    I have a couple of questions. Similar to what the former 
Speaker of the House was just describing, we have sort of a 
forestry roundtable. But what we have done in there is we have 
kind of agreed upon some definitions of best practices, and 
they are spelled out.
    I'm wondering if the Forest Service could provide me with 
some information on, for example, what is your definition of 
restoration, some of those kinds of things, so that everybody 
knows, when they're sitting down and talking about something, 
that these are the best practices of what's going to be put 
into use.
    The other item then goes to some of the points you were 
making. The question I have is, have you been funded enough to 
really make this a meaningful project? I know we had to put 
funds in, and continue to put funds in, and things were slow 
happening in the State of Minnesota, in order to make our 
forestry roundtable work, because at first it takes a lot of 
time for people to break down barriers and trust one another, 
and with part of that comes our obligation to fund that.
    Could you tell me if you have ``best practices'' 
managements and provide those to me, and then also tell me, 
what are your needs in funding so that you're not short-
changing other areas of the Forestry Division?
    Mr. Phillips. The roundtable that you referred to, I was 
talking to one of the forest supervisors from your part of the 
country, Jim Sanders. He was explaining to me that that is an 
excellent example of how various interests have come together 
to find solutions.
    As far as a definition of restoration, I mentioned in my 
testimony, or in one of my answers, that when we went into the 
Blue Mountains, most everybody I talked to agreed that the 
number one priority should be restoration. They had some 
different ideas about how that should take place.
    My feeling is that the definition of restoration depends on 
what the situation is locally and the various methods that 
people can work together to define how best to make that 
happen.
    As far as the funding information and the best practices, 
we can follow up with you on some information for that. Ms. 
McCollum. Thank you, Mr. Chair.
    Mr. McInnis. Mr. Otter.
    Mr. Otter. Thank you very much, Mr. Chairman.
    Mr. Chairman, I would ask that the report, ``Breaking the 
Gridlock'', referred to by my colleague from Idaho, be entered 
as part of the record, this record.
    Mr. McInnis. If there's no objection. That's going to cost 
us a lot of money to print that many pages.
    [Laughter.]
    Mr. Otter. It's probably the best bucks you'll ever spend, 
Mr. Chairman.
    Mr. McInnis. We'll take it out of your office allocation.
    [Laughter.]
    Mr. Otter. You got it.
    Mr. McInnis. If there's no objection, so ordered.
    [The report entitled ``Breaking the Gridlock'' has been 
retained in the Committee's official files.]
    Mr. Otter. The other thing I would ask, Mr. Chairman, if we 
could prevail upon this present panel to stay the course until 
after we've heard the second panel. Because like many of the 
other people who have already asked questions of this panel, 
and have referred to some of the testimony offered to us by the 
written testimony of the second panel, I think once that second 
panel testifies, it could generate some very interesting 
questions for this first panel.
    Mr. McInnis. Without objection from the guests we have 
today, we would appreciate if you would sit through the second 
panel.
    Mr. Phillips. We had planned on it. We are very interested 
to hear what they have to say.
    Mr. McInnis. I would advise everyone, though, that this 
Committee will adjourn at 12 noon sharp.
    Mr. Otter. Thank you, Mr. Chairman. Thank you for your 
indulgence.
    Mr. Phillips and Ms. Collins, perhaps both of you would 
like to respond to this question.
    One of the things that I see lacking in a ``true 
partnership'' is the partnering of the potential solution, and 
the partnering of the potential solution doesn't mean that 
everybody agrees a hundred percent, but that everybody does 
agree at least to an extent that they're willing to live with.
    It has been my experience, from what I have heard, that 
perhaps that hasn't been the partnership which both of you have 
spoken to this morning, that perhaps there is a directing 
partner and a participating partner in this program.
    Would you like to respond to that?
    Ms. Collins. I think that when we see really great 
successes in partnerships is when we, the Forest Service, or 
other Federal agencies like the BLM, step back and share power, 
or share responsibilities with our communities. That's when we 
really see things happen. So it's not that we're giving up our 
decision-making or statutory responsibilities at all, but that 
we're effectively working with everybody's interest in mind, 
not just our interest taking the top priority. I think that's 
what we really find works.
    When it doesn't work, it is often because there is somebody 
trying to presume that their interests are more important than 
somebody else's interests, and at least acknowledging that 
everybody has got something important to say and put it on the 
table. Sharing that and acknowledging it, and not presuming to 
have all the answers I think is the key. I think that's where 
you see success and you see problems.
    Mr. Otter. Ms. Collins, do you think that has ever been the 
position of the Forest Service, that they presume perhaps a 
lead role or a more knowledgeable base?
    Ms. Collins. Oh, absolutely.
    Mr. Otter. Thank you.
    Ms. Collins. I mean, we have had a lot of those situations. 
I think what we have learned is that they don't work that well, 
okay?
    Mr. Otter. Right.
    Did you want to respond to that, too, Mr. Phillips?
    Mr. Phillips. No. I would just say I think the model is 
changing in the way we reach decisions. Personally, my 
experience is, when we lost the use of advisory committees in 
the late Seventies, it took the Forest Service out of the 
circle, so to speak, where people were trying to find 
solutions, and it put is right in the middle of the 
controversy, to where the model was people would come and they 
would participate, give input, and then the forest manager 
would make a decision. Then we would go through the appeals 
litigation process.
    We're trying to change that model. It's going to take some 
time, and it's going to take some different skills of our 
people.
    Mr. Otter. One of the most successful programs I have 
seen--and I don't know that we have been successful with any of 
these in Idaho thus far, these partnerships you're talking 
about--but one of the most successful programs that I have seen 
in Idaho has been carried on in north Idaho by The Nature 
Conservency. They have been probably a big surprise to 
``Butch'' Otter, because I did not expect to be convinced so 
easily that they were going to be as effective as they were. 
But their program up in Boundary County, which is in the shadow 
of Canada, has just been a tremendous success as far as I'm 
concerned. You know, in my personal estimation, and also I 
believe in the surrounding community.
    One of the reasons they have been so successful is because 
they subject themselves continually to peer review.
    I have not seen any evidence that your program of 
partnerships has exposed itself to the near level of peer 
review as I think people would like to see it. Would you 
respond to that, please?
    Ms. Collins. Well, actually, I think one of the reasons 
why, for example, this Ponderosa Pine Partnership has been so 
successful in Colorado is that they did have this rigorous sort 
of self-reviewing process, and scientists looking at what they 
were doing, and a very aggressive monitoring piece.
    I think where you begin to build trust in these 
partnerships is when you're taking actions on the ground, that 
some people may be somewhat uncomfortable with, that that's 
when you institute monitoring to check back later to see what 
the impacts really were. I think a lot of these partnerships 
build that in. I think that's how you build trust.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Udall of New Mexico.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    During the last session of Congress, we passed the Secure 
Rural Schools and Community Self-Determination Act of 2000, 
which I believe was an act that tried to do as much as possible 
to have communities be involved in the restoration process. And 
as part of that bill, I worked with our Senators on the other 
side--Senator Dominici and Senator Bingaman--to have a title of 
that bill on facilitating collaborative restoration projects, 
specifically in New Mexico.
    I wonder if you have any information on how that is 
progressing and, if you don't, if I could get somebody to brief 
me on that.
    Mr. Phillips. I just happen to have some information.
    I have been very involved in trying to facilitate 
implementation of that law. I'm also a member of the long-term 
committee that the act prescribes. I have been real pleased to 
see the way our employees have really stepped out to implement 
this. We are in the process of giving concurrence on it to a 
number of our regions on the geographic boundaries for these 
RACs that they have submitted. Virtually every region has come 
in and working with their counties to identify where those 
Resource Advisory Councils should be set up. They are getting 
read to start the recruitment process--some counties have 
already started that--but to complete the recruitment process 
for the membership to those advisory councils.
    It's interesting to see our employees so excited about it. 
It is already improving relationships between our employees, 
our field organizations and counties, where there may have been 
some friction in the past.
    Mr. Udall of New Mexico. Have you found that the 
collaborative projects are ones which, if they bring the entire 
community in, folks that are interested in small-cut, out of 
the forest environmental types, any other people that are 
interested in recreating in the forest, if they bring everybody 
in, that that's the way they can be successful?
    Mr. Phillips. Well, the chances of success are much greater 
when you bring all the interests in at the beginning, rather 
than late into the end of process and have people come in and 
voice concerns. And it's not just people who live in the local 
community but the broader spectrum of people that are 
interested. We have got to get them involved at the beginning 
of the process.
    Mr. Udall of New Mexico. And if you--Go ahead, Sally.
    Ms. Collins. I was just going to say that, over the last 5 
years, I have been managing an advisory committee under FACA 
that is similar to the one that's being created here. The 
diversity on that committee, and the kind of challenges we put 
before that committee, and their willingness to rally behind an 
issue and provide support, I have never felt that kind of 
support for what I was trying to do before in my job.
    What happens when you sort of give up power is you end up 
getting power. I was amazed at how many ideas came to me that I 
hadn't thought of from the group. So when you have a group like 
that, that works effectively, and you manage effectively, and 
just as diverse as you describe, they can be immensely helpful 
and actually provide the support for the implementation on the 
ground of lots of work, and minimize the controversy and the 
challenges that come in from all sides. It's a very effective 
tool, and I think once you see it work, you want to have that 
yourself.
    Mr. Udall of New Mexico. My experience has been the same 
thing, that the more you have--whether it's a forest issue or 
any other issue--the more you have all the interests 
represented at the table, bring all the stakeholders in and 
make sure everybody has notice, and then move forward from 
there, it can be very productive. So thank you for your 
comments.
    Mr. Chairman, I applaud you for this hearing today. I think 
focusing on these kinds of collaborative partnerships is very 
important. Thank you.
    Mr. McInnis. It is the Chair's intent to recess the 
Committee until after the votes. I would expect the Committee 
to be back at around five or 10 minutes after 11. So if the 
second panel will be prepared, we will go right to the second 
panel, with the idea of concluding by 12 noon.
    The Committee will now stand in recess until the final 
vote.
    [Recess.]
    Mr. McInnis. I will now introduce our second panel. Let me 
begin by telling everyone we appreciate your patience. As you 
know, these votes cannot be anticipated, at least as to an 
exact time.
    I will now introduce the second panel, as I mentioned 
earlier. On panel two we have Mr. Thomas Brendler, Executive 
Director, National Network of Forest Practitioners; Maia Enzer, 
Program Officer, Sustainable Northwest; Bruce Ward, Executive 
Director, Continental Divide Trail Alliance, Inc.; Brett 
KenCairn, Director, Indigenous Community Enterprises; and 
Sungnome Madrone, Director, National Resources Services of 
Redwood Community Action Agency.
    Again, I will remind these witnesses, as I have the other 
witnesses, you have 5 minutes to present your comments. I would 
appreciate your paying attention to the timer, which gives you 
your time remaining.
    I will now proceed with Mr. Brendler.

  STATEMENT OF THOMAS BRENDLER, EXECUTIVE DIRECTOR, NATIONAL 
                NETWORK OF FOREST PRACTITIONERS

    Mr. Brendler. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to speak to you today. I am 
Thomas Brendler, Executive Director of the National Network of 
Forest Practitioners.
    The Network is a grassroots alliance of rural people, 
organizations, and businesses who are helping to build a forest 
economy that is ecologically sound and socially just. The work 
of our members includes watershed protection, restoration, 
ecotourism, job training, nontimber forest products, and value-
added wood manufacturing.
    Rural communities plagued by scarce jobs and depressed 
economies view restoration and stewardship not only as an 
economic opportunity, but as the beginning of a new 
conservation economy. This potential does, however, raise 
several important issues, which I would like to bring to your 
attention.
    First, we feel it is essential for concerns about poverty 
and social justice to be considered in the development and 
implementation of forest policies. The two principle reasons 
for this are that rural areas are sites of immense poverty and 
historic injustice. Twenty-five percent of rural counties are 
classified as persistently poor, and more than half of all 
rural counties are within a hundred miles of a national forest 
boundary.
    Also, much of the work on national forests is carried out 
by working class people and people of color. In the Pacific 
Northwest, for example, over 80 percent of the tree planting is 
carried out by Latino crews.
    Forest management is inseparable from issues like access to 
capital, job training, and forest work, the ideal living wage, 
the treatment of forest workers and the impacts of forest 
management decisions on surrounding communities.
    The issue of collaboration is also important to us, and 
most recently the NFFP and its partners have been working with 
the Forest Service to ensure that the new fire plan is 
implemented in accordance with collaborative stewardship. Our 
concern from the beginning has been that the fast pace and 
enormous scale of the fire effort will leave small rural 
communities and struggling microbusinesses behind.
    Although our work with the agency is in its early stages, 
there have already been some reports of resistance to 
collaborating with nonagency partners. Such critics view the 
fire plan as strictly an interagency initiative and question 
the role of community-based organizations. These reports appear 
to contradict explicit directives set forth in Title IV of the 
appropriations bill--for example, working with nonprofits and 
employing innovative contractual tools for carrying out work.
    I would like to draw your attention to a couple of critical 
needs under this theme of collaboration. First, agencies need a 
better understanding and appreciation for how these local 
groups can be effective partners. For example, on helping them 
create a bridge between agencies and communities.
    Risk taking and innovation within agencies is a critical 
element of partnerships for problem solving and must be 
rewarded at all levels. Agencies like the Forest Service also 
need the resources for necessary training and staff to forge 
partnerships.
    Also, community collaboration and investment needs to be a 
priority for which all agency staff are held accountable. In 
the past, agency staff have been evaluated based on measures of 
commodity production, and a new direction that we would propose 
would be to create social, community and ecological measures of 
performance.
    Investment is also another issue that we're concerned with. 
Rural communities continue to suffer from an inability to 
capture, add to and recirculate the value that comes off their 
neighboring forests. These groups need support for R&D, 
research and development, plain and simple. We envision a 
community forestry investment fund which would provide grants 
and low interest loans to stimulate nationwide innovation and 
small-scale, conservation-based businesses.
    In closing, I would like to draw your attention to a 
program that we feel embodies and offers a working model for 
agency/community partnerships. It's call the Economic Action 
Program. It's run through the Forest Service's Cooperative 
Forestry Division. EAP has been easy to overlook because it 
represents such a small percentage of the budget, but it does 
offer a number of significant advantages. It leverages five to 
ten dollars for every dollar spent by the program, those five 
to ten dollars being leveraged from other sources, most of them 
private. EAP, for a lot of communities, is the only source of 
support for the kind of work that they would like to do in the 
early going.
    Also, we feel that the lasting contribution that EAP makes 
will reduce the reliance that a lot of communities fall into 
when crises emerge.
    With that, I would like to thank you for the opportunity to 
speak with you today, and look forward to your questions.
    [The prepared statement of Mr. Brendler follows:]

 Statement of Thomas Brendler, Executive Director, National Network of 
                          Forest Practitioners

    Dear Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to speak to you today. I am Thomas 
Brendler, Executive Director of the National Network of Forest 
Practitioners. I will begin with a brief overview of my organization 
and the community forestry movement, followed by a discussion of what I 
see as some of the issues and challenges associated with community 
involvement in national forest restoration and recreation efforts. I 
will then briefly address national forests of the eastern United 
States, and close with discussion of the Forest Service's Economic 
Action Programs, which in my view represent a working model for 
effective community-agency partnership.
THE NNFP & THE COMMUNITY FORESTRY MOVEMENT
    The National Network of Forest Practitioners (NNFP) is a grassroots 
alliance of rural people, organizations, and businesses finding 
practical ways to integrate economic development, forest conservation, 
and social justice. The Network's mission is to promote the mutual well 
being of workers, rural communities, and forests by supporting 
individuals and groups that build sustainable relationships between 
forests and people.Formed in 1990, the Network now boasts over 500 
members in 48 states and British Columbia. NNFP members are engaged in 
a wide variety of enterprises in rural communities including watershed 
protection and restoration, ecotourism, job training, non-timber forest 
products, and value-added wood manufacturing. The membership includes 
people of Native American, Latino, Asian, African American, Caucasian 
and other ethnic backgrounds. Together, NNFP members are striving to 
build a forest economy that is ecologically sound and socially just.
    The NNFP and its partners represent the vanguard of a growing 
movement which has come to be known as community forestry. 
Practitioners of community-based forestry or practitioners for short 
first appeared about a decade ago in rural American communities that 
had traditionally relied on forests for their economic, social, and 
environmental well-being. Their emergence represented an attempt by 
rural communities to combat trends that seemed beyond their control: 
ecological degradation and the export of forest wealth; extreme 
unemployment, emigration and the decline of community capacity; rising 
national pressures on forest policy and consequent federal agency 
withdrawals into more centralized modes of decision-making; and a 
rapidly globalizing economy. Communities began to organize to gain 
greater control of their future, and to ensure the environmental 
soundness, economic viability, and social justice of forest management.
    Everywhere it seems people are talking about the need to balance 
concerns for environmental protection and economic development. People 
from rural, forest-dependent communities know that this is no easy 
task. Across the country, changes in the way forests are managed are 
bringing about significant social and economic transformations. These 
changes are particularly acute in traditionally forest-dependent 
communities, communities which represent the majority of rural America. 
Faced with the challenge of survival, we are trying to find ways to 
strengthen our communities by creating economic opportunities which, 
while forest-based, will be ecologically sound in the long term. By 
finding creative ways to integrate economic development, environmental 
protection, and social justice now, community forestry practitioners 
hope to strengthen their self-reliance, avert future crises, and forge 
their own prosperity.
    While practitioners come in all shapes and sizes, they tend to be 
community-based non-profit organizations. In many communities, these 
organizations have risen from the ashes of poverty and resource 
degradation, in abandoned storefronts and church basements to become 
engines of grassroots change. Many groups represent the first efforts 
by communities to come together to solve difficult problems, and many 
of these have grown up to become community institutions. While they 
often serve as a incubators for partnership and collaboration, their 
focus is ultimately on action and tangible change. They are the doers 
in the community forestry movement: they translate vision into 
practice, they know what policies look like when they hit the ground. 
They are living examples of a paradigm shift that is taking place 
across the country.
ISSUES & OPPORTUNITIES
    Rural communities plagued by scarce jobs and depressed economies 
view restoration, stewardship, and environmentally sound recreation not 
only as an economic opportunity, but as the beginning of a new 
conservation-based economy. Practitioners are making a living 
harvesting and processing undervalued species and diameter classes, 
restoring stream banks, maintaining trails, and leading pack trips and 
ecotours. The economic impact of these activities can be enormous: a 
1995 report by the Forest Service showed that, for example, recreation 
on national forests accounted for a $97.8 billion contribution to the 
Gross National Product, compared with $3.5 billion for logging. Renewed 
focus on restoration afforded by the fire plan and the large scale 
watershed projects hold enormous potential to strengthen rural 
communities in an ecologically sound manner.
    The potential of rural communities to benefit from forest 
restoration efforts does, however, raise several important issues.
Social Justice
    At the same time, rural areas are sites of immense poverty and 
historic injustice: 25 per cent of rural counties are classified as 
persistently poor. Because more than half of all rural counties are 
within 100 miles of a national forest boundary, its is essential for 
concerns about poverty and social justice to be taken into 
consideration in discussions about national forest policies. Moreover, 
much of the forest work on national forests tree planting, thinning, 
road closures and maintenance, and non-timber forest products 
harvesting is carried out by working-class people and people of color. 
In the Pacific Northwest, for example, over 80 per cent of tree 
planting is carried out by Latinos. This recognition has heightened 
longstanding concerns about marginalization, discrimination, and racism 
by land management agencies, natural resource professions, and interest 
groups.
    The NNFP believes that traditionally disenfranchised groups can 
make an essential contribution to the advancement of sustainable 
forestry, and forest restoration, particularly because they have a 
direct impact on the land and because their communities are often most 
severely affected by forest trends, such as the depletion of non-timber 
forest products. Most importantly, these groups represent a significant 
portion of the existing restoration workforce, which has been present 
for more than 20 years, and as such represents a wealth of historical 
knowledge about restoration and a set of potential partners.
    <bullet> LWe firmly believe that engaging underserved and minority 
groups and addressing the associated, fundamental issues of cultural 
diversity and social justice will help overcome societal barriers to 
achieving lasting forest stewardship.
    <bullet> LForest management is inseparable from issues like access 
to capital, job training, and forest work; the elusive living wage; the 
treatment of forest workers; and the impacts of forest management 
decisions on surrounding communities.
    <bullet> LIn general, there is a need for a more complete 
understanding of the full range of work being carried out in the woods 
an appreciation of the true diversity of the workforce engaged in it.
    <bullet> LWe fully support the notion of a nationwide assessment of 
the forest and watershed restoration workforce, which could serve as 
valuable reference in the development of forest policy.
Collaboration
    The NNFP has had a long and amicable relationship with the Forest 
Service. In 1999, the NNFP and the Forest Service negotiated a 
Memorandum of Understanding (MOU), whose goals include expanding access 
to information for practitioners and agency staff alike, and promoting 
cooperation at the national, regional, and local levels. Partnerships 
between community-based non-profits and federal agencies like the 
Forest Service continue to emerge, and have proven an effective tool 
for accomplishing mutual goals.
    Most recently, the NNFP and its partners have been working with the 
Forest Service to ensure that the new fire plan is implemented in a 
fashion that strengthens small rural communities and promotes 
collaborative stewardship. Our concern from the beginning has been that 
the fast pace and enormous scale of the fire effort, which has, for 
example, led many practitioners to fear that their skills, experience, 
resources, and small size will make it difficult to compete for and 
carry out restoration contracts. As a result, those who have worked 
over the past decade to open up opportunities for small, local, light-
on-the-land enterprises, and local and mobile contract workers of all 
kinds, are concerned that rural communities will once again become 
dependent on large, non-local firms.
    Although this work is in its early stages, there have already been 
some reports of resistance at the local and regional level to 
collaborating with non-agency partners. Such critics view the fire plan 
as a strictly inter-agency initiative, and question the role of 
community-based non-profits and other potential partners. These reports 
appear to contradict explicit directives set forth in Title IV of the 
fiscal year 2001 Appropriations Bill, for, for example, working with 
non-profits and employing innovative contractual tools for carrying out 
work. This confusion about the role of non-profits also seems ironic, 
considering that ordinary citizens have been approaching community-
based non profits for information about the fire plan, before they 
contact the Forest Service, if at all.
    In our other work with the Forest Service, I have observed a 
similar dynamic: the Washington office is readily supportive and 
willing to issue national directives, while the at local and regional 
level in some areas perhaps specifically in reaction to such directives 
is resistant to working differently. It is important to point out, 
however, that at the same time, the local and regional levels have been 
wellsprings of innovation there are some Forest Service staff who our 
members would like to have cloned. In addition, support for community 
forestry at the national level is far from universal, as illustrated by 
the limited internal support for the Economic Action Program, which I 
will discuss later. In general, we are optimistic with the support for 
community collaboration thus far by the Forest Service as it begins 
implementing the fire plan, but the Committee's help to ensure that the 
Forest Service fulfills its commitment to rural communities.
    I would like to draw your attention to several critical needs:
    <bullet> LAgencies, especially at the local and regional level, 
need a better understanding of and appreciation for how community-based 
non profits can help them implement their work, for example by serving 
as a bridge between these agencies and local communities. We are 
supportive of the Forest Service's Collaborative Stewardship Team's 
recommendation for joint workshops that would bring communities and 
agency staff together in an educational setting.
    <bullet> LSome agency staff resist using unconventional tools (like 
those identified in Title IV) because they do not receive internal 
encouragement to do so. Risk-taking and innovation within agencies is a 
critical element in forging new partnerships and solving complex 
natural resource problems. It must be rewarded at all levels.
    <bullet> LAgencies like the Forest Service cannot be expected to 
employ new tools without adequate resources for necessary training and 
staff. For example, the Forest Service currently lacks a sufficient 
number of contracting officers (CO's) the agency will need in order to 
meet the expectations of Title IV.
    <bullet> LCommunity collaboration and investment needs to be an 
agency priority for which all staff are held accountable. In the past, 
agency staff have been evaluated based on commodity measures, and we 
would propose that staff should instead be evaluated based on community 
and ecological criteria.
    <bullet> LWe need to take a long term view that extends beyond the 
current crisis, while at the same time uses it to leverage a permanent, 
meaningful role for rural communities in national forest management.
Investment & Capacity
    Forests and communities must be seen as a target for long-term 
investment, not just as a source of endless, short-term dividends. 
Conventional methods for measuring the worth of forests have failed to 
take into account non-market values, such as forests role in 
maintaining air and water quality, and as a result have hampered 
effective forest management. Accepting forests as providers of public 
goods will require us to make investments for which short dividends are 
not necessarily guaranteed.
    Similarly, rural communities continue to suffer from an inability 
to capture, add to, and recirculate the value that comes off of their 
neighboring forests. As you are probably aware, the economic 
multipliers at each successive link in the value-added chain are 
significant. One observer has gone so far as to propose man years per 
thousand board feet as an alternative measure of mill productivity. We 
feel that adding value to what comes of the not only forest 
communities, but, by increasing the value of each acre, reduces the 
number of acres that need to be cut to generate the same amount of 
income.
    Ultimately, the ability of community forestry practitioners to be 
effective partners and to create lasting change in forests and rural 
communities, depends on their capacity to solve problems and capitalize 
on emerging opportunities. Because most community forestry 
practitioners operate on shoestring budgets, often relying on 
volunteers and in-kind support, they often lack the resources to build 
their own capacity. With narrow profit margins, many small, innovative 
community-based business find themselves in a similar predicament. 
These groups are breaking new ground, and the new economy they are 
helping create built on conservation and restoration requires 
investment. This is R&D, plain and simple. At present there is no 
significant source of such investment. The Forest Service's Economic 
Action Program represents the beginnings of such a resource, but its 
funding has always been tenuous.
    <bullet> LWe envision a Community Forestry Investment Fund, which 
would provide grants and low interest loans to stimulate nationwide 
innovation in small-scale, conservation-based forest enterprise and 
document lessons learned.
Information
    Rural communities and groups like ours have become accustomed to 
the fact that information on Forest Service activities is difficult to 
access, rarely comparable across regions, and in some cases lacking 
altogether. While was encouraging to see that the General Accounting 
Office identified this need in 1997, I mention this issue at every 
opportunity, because information is a building block of trust, and a 
key to community involvement. The Forest Service appears to have 
acknowledged this need, but it is important that it be a priority.For 
example, there is no easily accessible, comparable data (current or 
historic), for example on the Economic Action Program. This situation 
has made it difficult for communities to learn about the program, and 
for groups like ours to support it effectively. We have similar 
concerns about the new fire plan, and have been urging the Forest 
Service to make basic information on the plan (including opportunities 
it offers and how to access them) widely accessible.
    <bullet> LWe have proposed to the Forest Service the creation of a 
regularly updated, web-based database of proposed and ongoing fire plan 
projects, which would be searchable by forest, locality, and other 
criteria. Such a tool could serve as model for EAP and other Forest 
Service programs.
Monitoring
    Well-designed restoration projects require a commitment to track or 
monitor work so successes and failures can be identified, and actions 
modified--or halted--if necessary. Diverse interests are more likely to 
support each other when they have common objectives and safeguards to 
protect their interests. Monitoring is the first step, but it is 
incomplete by itself. It must be accompanied by reporting mechanisms 
and the establishment of processes that ensure prompt corrective 
actions when necessary. These steps are part of adaptive management, 
which views every management action as an experiment and acknowledges 
the uncertainty associated with each action.
    For many years monitoring has been seen as an important activity in 
public policy and management models but done in a limited fashion, if 
at all. Looking forward and putting new projects on the ground has 
always been more captivating than looking back and monitoring what has 
been done. Yet, monitoring is the linchpin in efforts to understand and 
learn from our actions, as well as to begin to build accountability for 
them. Building accountability requires, first, engaging diverse local 
and distant stakeholders in monitoring processes and practices, and, 
second, developing ways that monitoring and learning inform and even 
obligate subsequent actions.
    Community-based monitoring efforts pose a number of technical and 
political challenges, including:
    <bullet> LAdequate funding: some propose that projects should not 
be approved if a monitoring plan and necessary funding are not in place 
at the outset
    <bullet> LTension over the level of scientific rigor required to 
achieve objectives
    <bullet> LDiffering perceptions and expectations
    <bullet> LInclusiveness in multi-party monitoring; and
    <bullet> LIntegrating social and ecological factors into the 
monitoring process
A Footnote from the East
    While I am the head of a national organization, as a resident and 
native of New England, and the sole witness from the eastern United 
States, I thought it important to draw your attention briefly to my 
backyard. As you might imagine, national forests in the east are easily 
overshadowed by their western counterparts, because they represent a 
fraction of the national forest system's total acreage. Yet, they are 
no less capable of serving as crucibles for innovation and partnership.
    Two examples from the Northeast are:
    <bullet> LThe Green Mountain, White Mountain, and Finger Lakes 
national forests have just received approval to resume their forest 
plan revision process. Important new regulations (and interpretations 
of them) have changed fundamentally the way these forests will go 
approach public involvement. Key among these is a new awareness of the 
need for local advisory committees (both scientific and citizen-based), 
the need for greater integration of forest planning with more landscape 
(ecosystem and community) perspectives, and stronger emphasis on 
building broad principles and goals into the planning process. Another 
important philosophical change that is influencing the planning process 
is a strong focus on sustainability as the principle objective of 
forest management.
    <bullet> LIn Vermont, one of our members is attempting to develop 
the first stewardship contract in their local district of the Green 
Mountain National Forest, focusing on headwater stream restoration in 
past and ongoing timber sale areas. They report it has been a slow 
process of education of mid-level agency officials about the 
stewardship contracting process and the opportunities it presents--but 
hope to begin work this summer.
    One last point is that while national forests in the east will 
benefit from the same tools and programs as their western counterparts, 
the predominance of private lands will heighten the importance of 
developing parallel, private-sector, market-based innovations as well, 
such as green certification, and cooperatives among landowners and 
manufacturers. Such innovation would certainly have application to the 
West, where private lands issues, while overshadowed, are far from 
nonexistent.
ECONOMIC ACTION PROGRAMS: A CASE STUDY OF WHAT WORKS
    Through its Cooperative Forestry Program, the Forest Service has 
played, and can continue to play, a critical role in assisting 
communities like those of our members. We are grateful for the official 
recognition of this role in the Cooperative Forestry Assistance Act of 
1978, the National Forest-Dependent Rural Communities Economic 
Diversification Act of 1990, and in the Forest Service's 1990 strategic 
plan.
    As you are probably aware, the Forest Service's Economic Action 
Programs (EAP) have traditionally consisted of five programs: Wood in 
Transportation, Forest Products Conservation and Recycling, Rural 
Development, Economic Recovery, and Economic Diversification Studies. 
Network members have found these last three programs, which we shall 
collectively refer to as Rural Community Assistance (RCA), to be 
particularly effective mechanisms for enabling the Forest Service to 
carry out its rural assistance role. In fact, in many areas of the 
country, RCA is the only resource of its kind available to struggling 
rural communities. Furthermore, while many communities have benefited 
from RCA many more across the country are facing growing challenges 
that RCA's minimal but critical assistance can help them address before 
these challenges balloon into major crises.
    As you may know, rural communities can apply through the Rural 
Development program for grants that serve as matching funds for local 
projects to stimulate improvements in long-term economic and social 
well-being. Economic Recovery assists rural communities in or near 
national forests, which are experiencing acute economic problems 
associated with changes in resource management policies and decisions. 
Economic Recovery has been used to help community leaders facilitate 
community-based planning, develop job- and leadership skills, develop 
business plans, and devise and implement market strategies for new and 
existing technologies. The Economic Diversification Studies program, 
which was discontinued in fiscal year 1996, provided cost-share funds 
to study ways of diversifying local economies in communities that were 
heavily dependent on one industry. Projects ranged from tourism and 
value-added manufacturing to historic preservation and recycling.
    We have found EAP and RCA to be instrumental and cost-effective for 
several reasons:
    <bullet> LOn average, every dollar spent RCA leverages $5 to $10 
from other sources. For example, the $80,000 in RCA funds which 
supported the development of the Watershed Improvement Network in 
northern California leveraged some $500,000 in state and federal funds 
for watershed improvement.
    <bullet> LEAP offers a helping hand, not a handout. It strengthens 
the capacity of rural communities to solve problems by (for example) 
providing access to technology and expertise, and by building working 
relationships among community residents, organizations, businesses and 
governmental agencies. The end result of the agency's EAP approach is 
both a strengthening of the internal resources of a community, as well 
as improved access to the external resources available to it.
    <bullet> LThe community capacity built with the help of EAP often 
provides a necessary foundation for future economic development. It has 
been a major catalyst in the development of economic opportunities 
emerging around forest conservation and restoration.
    <bullet> LThe lasting contribution the EAP efforts have made to the 
social and economic infrastructure of rural communities will lessen 
their reliance on federal assistance in the long term, and help avert 
future crises that would invariably involve further public expenditure.
    <bullet> LAs rural communities take their critical first steps 
toward capacity building and economic development, EAP is often the 
only source of funding. EAP support to communities during these early 
stages strengthens their competitiveness and in many cases simply makes 
them eligible for better known, but less accessible programs. In this 
respect EAP again acts as a source of leverage.
    <bullet> LEAP starts at the community level, engaging Forest 
Service staff (often local residents themselves) directly with 
community leaders, and developing solutions from the ground up. In many 
areas, EAP is the only agency approach with such an intensive delivery 
system. This local orientation produces solutions appropriate to unique 
local circumstances, and in which local residents feel invested two 
characteristics which our experiences have shown to be determinants of 
lasting success.
    <bullet> LEAP does not presume to hold the answers to the problems 
of rural communities. Nor does it assume that all rural communities are 
alike Instead, EAP is structured to be adaptive both to unique local 
circumstances of client communities as well as to changing social and 
economic conditions and emerging crises. For example, RCA has adapted 
to the unique landowner patterns in the northeast, where Rural 
Development monies are implemented through the Rural Development 
Through Forestry program.
    <bullet> LThe Forest Service is uniquely positioned to administer 
EAP. With branch offices in small rural communities, the Forest Service 
is able to reach communities other agencies cannot reach. The Forest 
Service also brings to the table an enormous land base, access to 
national resources, and internal reserves of expertise in forest 
management, economic development, and forest products technology.
    <bullet> LWhile state agencies often function as invaluable 
partners in EAP projects, EAP's status as a federal program offers 
several unique advantages. It affords consistent service delivery, 
draws upon a national pool of expertise, and facilitates the transfer 
of knowledge among rural communities nationwide. As EAP monies are not 
limited to federally-owned land, the program provides a useful tool for 
reckoning with challenges at the watershed level and other areas of 
mixed ownership. All of these strengths as a federal program help make 
EAP more cost effective.
    Yet, EAP's usefulness and effectiveness have built a growing 
constituency of past and potential beneficiaries who want to see the 
effort flourish. A closer examination of similar EAP projects around 
the country reveals that as the projects mature beyond implementation 
the leveraged dollars often increase dramatically and the social, 
emotional, economic and environmental benefits to the communities 
multiply. We are not talking about hand outs or government grant 
dollars thrown into the wind, but rather investments that pay off in 
big dividends to communities.
    The Forest Service's EAP effort has been easy to overlook because 
it represents such a small percentage of the Forest Service's budget 
about half of one percent. It is further isolated within the agency by 
being treated as a separate program. If it is to be as important a part 
of the agency's programs as many Forest Service leaders hope and 
contend, then it must be fully integrated into all Forest Service 
programs, and must receive a greater share of the budget. We are 
appreciative of Congress $12.5 million additional appropriation for 
fiscal year 2001 under Title IV, and hope that it signals the beginning 
of a new era for the program, and for the communities who benefit from 
it.
    <bullet> LWe are interested in seeing the annual appropriation for 
EAP increase beyond its 1997 high of $20 million, to more on the order 
of $50 million. I must point out, however, that unrelated earmarks 
undercut the program's potential at any funding level: last year 
earmarks accounted for two-thirds of the EAP appropriation.
    As one of our members put it, Cutting this program is like cutting 
a lifeline between rural areas and the rest of the world. And this, 
from the director of a top-ranked Resource Conservation and Development 
District: EAP is the most responsive, accomplishment oriented, least 
bureaucratic program of them all. There are federal programs that have 
out lived their purpose and should be eliminated. EAP is not one of 
them. We feel very strongly that EAP can serve as a model for other 
federal programs that seek to build partnerships with communities while 
carrying out restoration efforts.
    Thank you for the opportunity to address the Subcommittee today.
                                 ______
                                 
    NOTE: The report and pamphlet submitted for the record can be 
viewed in the Committee files.
    Mr. McInnis. Thank you for your presentation.
    Ms. Enzer, we appreciate your testimony. You may proceed.

   STATEMENT OF MAIA J. ENZER, PROGRAM OFFICER, SUSTAINABLE 
                           NORTHWEST

    Ms. Enzer. Thank you.
    Mr. Chairman and members of the Subcommittee, thank you so 
much for holding the hearing on this topic. I am very happy to 
share my experience in working with rural communities and 
microbusinesses.
    I am the Program Officer at Sustainable Northwest, for the 
Healthy Forests, Healthy Communities Partnership. We are based 
in Portland, Oregon, and our mission is to assist rural 
communities to implement strategies that benefit both the land 
and the people. The Healthy Forests, Healthy Communities 
Partnership is aimed at building rural community capacity to 
produce and market the byproducts of ecosystem restoration in a 
fashion that is ecologically and socially responsible.
    Our partners include small and microbusinesses, community 
nonprofits, land management agencies, environmental interests 
and others dedicated to building an economy that reinvests in 
the land and in people.
    I'm going to start by giving you a little bit of background 
on the people and places that constitute what we call a 
conservation-based economy, as Thomas alluded to. The 
communities and businesses affiliated with Sustainable 
Northwest are committed to finding a new path through the 
woods. By diversifying into conservation-based businesses, they 
hope to create a more sustainable economic system. They want to 
move beyond the ``boom and bust'' cycle which clearly failed 
from a biophysical and community standpoint, and they want to 
adopt a more sustainable stewardship role in watershed 
restoration and ecosystem management. But they want one that 
provides family wage jobs.
    The businesses that I work with face common challenges. 
Northwest communities have felt the burden of polarization over 
forest issues, and so have the businesses that I work with. The 
combination of reduced and inconsistent funding, delays in 
budget approval, and the shifting direction of the Federal 
agencies, have made it very difficult for the private sector to 
prepare to serve the restoration economy.
    The members of the Healthy Forests, Healthy Communities 
Partnership face challenges such as making use of traditionally 
low value species, being located in communities surrounded by 
public lands, high in poverty, remote from transportation 
corridors, and limited in infrastructure. They also suffer from 
having unpredictable supplies of wood sources, whether that's 
from restoration or traditional timber sale projects.
    They have difficulty in finding a skilled workforce, both 
on the land management side as well as on the manufacturing 
side. They lack access to capital to invest in and expand their 
businesses. But in spite of these obstacles, small producers 
are starting to create economic opportunities for conservation-
based business. But their success is dependent on Congress and 
the American public being willing to invest in our natural and 
human capital.
    We like to think of it as moving from the watershed into 
the woodshop, and we need to support a consistent program of 
work for conservation-based business if they are going to be 
able to enter this new economy. And while we support public-
private partnerships, it's important for Federal agencies and 
Congress to understand that, with every change in policy, when 
the pendulum swings from one extreme to another, it is the 
communities and the businesses that get caught in the middle.
    A commitment to building a climate for conservation-based 
business will take time and consistency at the Federal level. 
Short-term or politically expedient solutions don't help. 
Congress needs to examine ways to support conservation 
businesses and be a catalyst to stimulate this private sector.
    We do have some suggestions on where to start with that. We 
think that it would be helpful to create small restoration and 
value-added training centers for rural development. These 
should be located in rural areas to build that capacity.
    We need to invest in research and technology development 
through the Forest Products Lab, which needs to be adequately 
funded and supported to work with small and microbusinesses in 
rural communities.
    Finally, in working with the land management agencies, we 
do feel it's important to make an investment in them. 
Collaboration takes time and trust, as you heard from the 
Forest Service this morning, and communities and businesses are 
willing to take the time to engage in those long-term 
partnerships. But we need to help the Forest Service to rebuild 
their capacity to be good partners.
    We support the economic action programs--and I'm just going 
to talk about one aspect of it. The Forest Products 
Conservation and Recycling Program, which is part of the 
Economic Action Programs, is the best avenue for small and 
microbusinesses interested in doing value-added manufacturing. 
However, nationwide, there are only about six full-time 
employees working on that, compared to about 16 10 years ago. 
So it's a very small program but it has a lot of opportunity. 
In some places, like New Mexico and California, the Forest 
Service doesn't even have somebody working in the Forest 
Products Conservation and Recycling Program.
    We also need support for stewardship contracting.
    Lastly, just to sum up here, we feel strongly that the 
agencies need direction and support for monitoring of 
ecological, social and economic conditions.
    The rest of my remarks are in my written testimony, so I 
will stop there. Thank you very much for this opportunity.
    I will just end by saying the way in which we care for the 
land directly affects the well-being of our rural communities. 
When our forests are healthy--
    Mr. McInnis. Ms. Enzer, we need to wrap up.
    Ms. Enzer. Okay.
    Mr. McInnis. The reason that we're strictly adhering to 
time limitations is so everybody on your panel has an 
opportunity to not only testify but also take questions, 
because the Committee will adjourn at 12 noon.
    Ms. Enzer. Okay.
    [The prepared statement of Ms. Enzer follows:]

   Statement of Maia J. Enzer, Program Officer, Sustainable Northwest

    Dear Mr. Chairman and Members of the Subcommittee:
    I am Maia Enzer, Program Officer at Sustainable Northwest for the 
Healthy Forests, Healthy Communities Partnership. Thank you for your 
interest in this topic and for gathering so many practitioners from 
around the country to share their hands-on experiences and perspectives 
regarding community involvement in forest restoration. Sustainable 
Northwest (SNW) is a Portland, Oregon-based nonprofit organization 
founded in 1994 and dedicated to forging a new economy in the Pacific 
Northwest one that reinvests in the people, the communities, and the 
landscapes of the region. The mission of the organization is:
    To build partnerships that promote environmentally sound economic 
development in communities of the Pacific Northwest.
    The Healthy Forests, Healthy Communities Partnership (HFHC) is a 
regional collaborative dedicated to building capacity in rural 
communities to perform forest restoration and ecosystem management 
services, and to produce and market is the byproducts of such 
activities. The Healthy Forests, Healthy Communities Partnership has 
members in northern California, south-central and eastern Oregon, 
Washington, and Idaho. Our partners are small and micro-businesses, 
community non-profits, land management agencies, environmental 
interests, and others interested in building a conservation based 
economy. A Vision and Values Statement serves as the constitution of 
our Partnership, which our members sign as a symbol of their commitment 
to strive towards environmental and social responsibility. My remarks 
today will be based in part on that Statement, which reads: We are a 
group of people, organizations, and businesses working together, able 
to think beyond ourselves to embrace the entire biological community, 
beyond one generation to the needs of many.
    We value and support those who refuse to sacrifice the long-term 
good of the land for the good of the people, or the good of the people 
for the good of the land, and who seek to find a new path which honors 
and sustains both.
    We are committed to working towards:
    <bullet> LIntegrating ecological, economic, and social objectives 
in everything we do
    <bullet> LObtaining our raw materials in a manner that restores 
and/or maintains forest ecosystem and watershed health;
    <bullet> LProcessing our products to maximize quality and value to 
the consumer while benefiting the people and communities closest to 
where the raw materials originate;
    <bullet> LMarketing our products through commercial partners who 
understand and can communicate our vision, values, and principles;
    <bullet> LWorking cooperatively with landowners, managers, and with 
each other, in a way that honors our respective cultural backgrounds, 
roles, and responsibilities.
    Today I would like to highlight some of the critical steps 
necessary to building a conservation-based economy reflective of our 
Vision and Values Statement. This includes the need to develop a high-
skill, high-wage workforce to perform activities in forest restoration 
and value-added manufacturing. I will also identify several challenges 
and needs associated with making the transition from a traditional 
extractive economy to one based on restoration and ecosystem 
management. Finally, I will offer some recommendations for what can be 
done to overcome these challenges and what opportunities the Forest 
Service and Congress can embrace to make this transition successful. 
First, I would like to provide you with a little background information 
on the people and places that constitute this restoration-based 
economy:

Rural Communities and Public Lands
    Across the Northwest, isolated rural communities surrounded by 
public lands have undergone major environmental and economic 
transitions. Some of these changes result from significant shifts in 
public land management policies, some are due to structural changes in 
the forest products industry, and still others are connected to global 
trends towards an increasingly urban-based service economy. Such 
changes have deleteriously impacted the ecological integrity of many of 
our forests and watersheds, reducing the natural capital of the 
surrounding rural communities. The concomitant decline of these 
communities social and economic capital is also leaving its mark: 
Businesses have left or closed, and skilled people have outmigrated to 
find work elsewhere, leaving fewer people to address and mitigate the 
impacts of these changes.
    Despite the challenges they face, many rural communities have, as 
Betsy Rieke said, Optimism beyond reason. They love our public lands 
and feel the deep connection between those lands and their communities. 
They stay because they know they can provide the skills and stewardship 
ethic to care for both. They believe our public lands provide numerous 
ecological services yet to find their value in the marketplace: 
services such as clean water, biodiversity, carbon sinks, etc. These 
people hold generations of local knowledge about the land. And, they 
have every intention of building a sustainable future for themselves, 
their children, and our public lands.
    The communities and businesses affiliated with Sustainable 
Northwest are committed to finding a new path through the woods. They 
want to move beyond the boom and bust cycle, which clearly failed from 
a biophysical and community standpoint, to adopt a stewardship role in 
public and private lands management--one focused on restoring 
ecological integrity and providing long-term maintenance. They also 
want to stimulate a more favorable economic and political response to 
that stewardship role. Rural communities and businesses are eager and 
ready to help redefine the value of our public lands and to offer the 
stewardship services we will need to achieve those values. But their 
success is dependent on the commitment of Congress and the American 
public to reinvest in our natural and our human capital.

Common Challenges of Conservation-based Businesses
    Sustainable Northwest works with a variety of small rural 
communities and businesses through many of our programs. Our partners 
all share a commitment to building sustainable conservation-based 
economies; they also experience similar constraints and challenges to 
fulfilling that commitment. Small and micro businesses join northwest 
rural communities in feeling the burden of the polarization over forest 
issues. The combination of reduced and inconsistent funding (and delays 
in budget approval) and the shifting direction of federal agencies have 
made it very difficult for the private sector to prepare to serve the 
restoration economy. The members of the Healthy Forests, Healthy 
Communities Partnership face several challenges, which include:
    <bullet> LMaking use of traditionally low-value species (the 
byproducts of forest restoration)
    <bullet> LBeing located in communities surrounded by public lands, 
high in poverty, and remote from transportation corridors and limited 
in infrastructure
    <bullet> LHaving unpredictable supplies of wood sources (from 
restoration projects or traditional timber projects)
    <bullet> LDifficulty in finding a skilled workforce
    <bullet> LLacking access to capital to invest in and expand their 
businesses
    However, the HFHC Partnership is committed to working together to 
overcome these challenges and make local businesses profitable through 
their commitment to environmental and social responsibility.

From the Watershed to the Woodshop: Steps to creating a conservation-
        based economy
    The success of a conservation-based economy is dependent on many 
factors, including where we make investments and how the market rewards 
environmental and social responsibility. In the arena of forest and 
watershed restoration, the success of the conservation-based economy 
will depend on how work is structured and byproducts are utilized on 
public lands. This includes three components: Building a high-skill, 
high-wage workforce which can respond to the needs of the landscape; 
investing appropriately to get the work done on the land, and adding 
value to byproducts that result from restoration work.

From the Watershed ...
    The cornerstone of public lands restoration is on what the 
landscape needs to bring back its ecological integrity and resiliency. 
Those ecological needs must drive restoration and management. After 
that we need to look at utilizing the byproducts, if any, from those 
activities. Although progress has been made towards these ends, it is 
often inhibited by land management agencies that are not structured for 
this type of work. It is time to put in place policies, procedures, and 
regulations that encourage restoration to occur at an appropriate 
scale, utilize site-specific conditions, and allow managers to deal 
with whole landscapes.
    One critical step is to make restoration work accessible to local 
contractors, non-profits, and other appropriate private entities. Our 
current system is biased towards large, mobile crews and sets up a 
system that may not treat the worker (local or mobile) fairly and may 
not, in the long-run, be the best value for the American taxpayer. 
Large contracts are written in the name of efficiency, limiting the 
ability of small and micro-businesses to successfully compete. A 
greater emphasis on quality of the work, rather then lowest bid, is 
needed. In addition, contracts offered locally are often of low value, 
low skill, and short duration. That is, even when awards are made to 
local contractors, they tend to be less significant. Some examples: in 
Lakeview, Oregon, an assessment of service contracts showed that local 
contractors received less than 20 percent of the awards. In Hayfork, 
California, a study by Dr. Cecilia Danks showed local contractors 
getting about 7 percent of the contract awards. In both cases, the 
contracts were for lower-value, shorter-duration work. A more balanced 
approach to contracting needs to take place. Restoration contracts need 
to be designed and released in a timely manner (with respect to field 
seasons), and when possible, packaged for smaller contractors. This 
would create a fairer and more equitable atmosphere for competition. 
The new authorities offered through the National Fire Plan are an 
excellent beginning to correcting this situation.
 ... To the Woodshop
    Sustainable Northwest is committed to ensuring the restoration 
economy makes the link from the Watershed to the Woodshop. Many of our 
community partners, who work collaboratively to find agreement on 
forest restoration goals, want to take the next step toward ensuring 
that the byproducts of their projects are used to build a local value-
added manufacturing sector. Through our HFHC Partnership we work to 
identify and access urban markets for the products manufactured. In 
addition, the HFHC Partnership provides businesses with a way to share 
inventories and jointly fill orders, allowing them to increase their 
capacity and capture a larger share of the market, within the limits of 
the local resources.
    But let us be clear on this point. Building a value-added 
manufacturing sector with the byproducts of forest restoration is not 
about the volume of product extracted. Rather, it is about ensuring 
that byproducts that enter the manufacturing stream are utilized by 
local secondary and tertiary manufacturers. Look at the data: In the 
Pacific Northwest the value-added industry is a key part of the 
region's wood products sector, and a segment that has shown steady 
growth in the past decade. Studies conducted in Oregon and British 
Columbia reveal that typical primary mills employ only about 3 persons 
annually per million board feet (MMBF) of lumber produced. Compare that 
to, manufacturers of moldings, millwork products and components employ 
approximately 12 to 18 persons annually per MMBF or furniture 
manufacturers who employ 60 persons annually per MMBF of wood 
processed. As you can see, by adding value locally to the byproducts of 
forest restoration we have the opportunity to create high-skill, high 
wage jobs, diversify the local economy, and connect rural communities 
to the urban marketplace.
    HFHC business partners are working towards these goals, creating 
viable value-added businesses that reflect their commitment to 
environmental and social responsibility. They work primarily (but not 
exclusively) with small diameter wood (suppressed Douglas Fir), 
underutilized or lesser-known species (i.e. Madrone, Tan Oak, and 
Juniper), or recycled, reclaimed, or reused wood. The range of products 
these small rural businesses provide is impressive, and include:
    <bullet> LFlooring, paneling, and molding;
    <bullet> LPost and poles;
    <bullet> LCustom and roundwood furniture, designed for the home or 
the office; and
    <bullet> LGifts and accessories (puzzles, wine and magazine racks, 
bird houses, hampers).
    The Old Growth Diversification Program, authorized by Congress and 
delivered to the states of Oregon and Washington through the Forest 
Service, has allowed significant investments of technical and financial 
resources to expand the region's secondary manufacturing sectors. In 
fact, Sustainable Northwest has been able to use these funds to help 
our business partners access urban markets. This funding has been 
critical to the success of the Healthy Forests, Healthy Communities 
Partnership.
    So what can we do together to move these efforts forward? We have 
some ideas:
1. Support Conservation-based Businesses
    A successful shift from the traditional extractive economy to one 
based on restoration and maintenance will require that businesses both 
on the land management and manufacturing sides invest in new equipment, 
train and recruit new employees, and partner with communities and 
agencies. Finding markets for the byproducts of forest restoration is 
another important part of this equation. Community-based nonprofits and 
local businesses are working together to identify these markets, to 
research and develop new technology, and to raise private dollars to 
train workers and test restoration techniques on public lands. The Ford 
Foundation has a five-year Community-based Forestry Demonstration 
Program, which is supporting efforts like HFHC.
    Many businesses are willing to engage in this new economy. However, 
without a strong commitment from federal agencies and Congress to a 
consistent program of work, businesses will become reluctant to take 
these risks.
    Wallowa County, Oregon, provides us with an example of the current 
situation. The community has been working on a number of light touch 
approaches to restoration. In anticipation of restoration work 
announced by the Forest Service, some local contractors purchased 
special Scandinavian equipment designed to handle small-diameter 
material and have minimal impact on the land. Unfortunately, few 
projects have been brought to fruition. Further, the remaining mill in 
the region also invested in new equipment based on the Forest Service's 
projections. However, due to several factors, this mill has been in 
curtailment since November, although it hopes to reopen one shift in 
April. Compounding this situation, adjacent industrial private 
landowners usually award contracts to crews from outside the community 
rather than utilize a local workforce.
    While we support public-private partnerships, it is important for 
the federal agencies and Congress to understand that with every change 
in policy when the pendulum swings from one extreme to the other it is 
the communities that get caught in middle. A commitment to building a 
climate for conservation-based business will take time and consistency 
at the federal level - not short term or politically expedient 
solutions. Therefore, Congress needs to examine ways to support 
conservation-based businesses and serve as a catalyst to stimulate this 
sector. Some suggestions to explore are:
        1. LCreate Small Restoration and Value-Added Training Centers
          LThere has been little or no public investment in value-added 
        manufacturing in forest-based communities. One idea is to 
        create sub-regional centers focused on serving small and micro-
        businesses involved in restoration and creating a conservation-
        based economy. These centers could be formed through 
        partnerships between local non-profits, universities, the 
        Forest Service, and others. For example, the Centers could 
        provide technical assistance in the areas of:
          * LRestoration and ecosystem management
          * LProcessing techniques for the byproducts of restoration 
        and sustainable forestry
          * LAccessing capital from public and private sources
          * LWorkforce training for value-added manufacturing and 
        restoration
          * LMarketing and business support to help conservation-based 
        businesses penetrate urban markets.
        2. LInvest in Research and Technology Development
          LCreating a restoration economy necessitates that the public 
        and private sectors develop new techniques and approaches to 
        treat the land and handle restoration byproducts. The Forest 
        Products Lab in Madison, Wisconsin has been an excellent 
        resource and has worked with a number of Sustainable Northwest 
        partner communities and businesses. For example, one of the 
        HFHC founding business members, Jefferson State Forest 
        Products, worked with the Lab to improve the utilization of 
        Madrone, traditionally considered a non-commercial species due 
        in part to its color inconsistency. The Forest Products 
        Laboratory helped develop a formula to pre-steam the wood, 
        making its color consistent and thus increasing its commercial 
        viability. This will help Madrone move to a furniture grade 
        wood.
          LTo ensure the success of the Forest Products Lab, it is 
        essential that Congress provide adequate support and direction 
        to enable its employees to work with more communities and small 
        businesses to:
          * LTest and develop value-added products;
          * LCreate and understand light touch management techniques 
        and equipment; and
          * LUnderstand the impacts of restoration forestry.
        3. LMake Better Use of Existing Programs. There are a number of 
        programs, like the Economic Action Programs, which I will 
        discuss later, that are very effective and need to be fully 
        funded and supported. We also need to determine how the Small 
        Business Administration targets forest-based businesses. The 
        HUB Zone program seems to be one SBA program that is proving 
        itself useful in helping local contractors win contracts.
2. Understand Community Capacity Through Assessment and Monitoring
    The Healthy Forests, Healthy Communities Partnership believes the 
health of our forests and well-being of communities are interdependent. 
In order to fully understand this interdependence, we must look at 
assessment and monitoring as the linchpins to successful restoration 
and to building the capacity of communities and the agencies to reach 
those goals.
    Community Capacity is the ability of a group to respond to external 
and internal stresses and to find solutions to those stresses. Rural 
communities, and the Forest Service, need to understand what capacity 
they possess to build a conservation-based economy and perform the work 
of restoration. By directing the Forest Service to participate in 
assessing and monitoring social and economic conditions, and making the 
appropriate investments, we will increase the likelihood that 
restoration projects will be successful from an environmental and 
social perspective. The work of the Pacific Southwest Research Station 
in partnering with communities to understand social and economic 
conditions is an excellent example of participatory research.
    For restoration, we need to understand the capacity of the existing 
workforce and business sectors in our rural communities. This will 
require the Forest Service to partner with nonprofits and other 
entities to assess the current workforce, identify the type of 
restoration work needed, and match the two together. Communities and 
the agency will then be able to respond to this information by 
rebuilding where gaps exist and making necessary changes in procurement 
to allow local businesses to successfully compete for contracts on the 
public lands.
    Lake County, Oregon, provides us with an example of what can be 
done. Based on the results of the workforce assessment conducted, 
Sustainable Northwest is providing technical assistance for contractors 
signing up as HUB Zone contractors. We are simultaneously working with 
the Forest Service to ensure that service contract work on the Fremont 
National Forest (the adjacent public land) is sized and offered in a 
way that allows local contractors to compete. This is an example of how 
community-based nonprofits can work in partnership with federal 
agencies and private entities to reach common goals.
    Similar assessments will need to be made on the manufacturing side, 
with the results allowing for further investments in training and 
capacity building if necessary. Rural communities need to know what is 
left of their manufacturing base, infrastructure and workforce. There 
is a need to identify what kind of wood supply will be available and 
what capital is needed to build inventory. Local nonprofits, small 
businesses, and federal agencies can work together towards these 
objectives, conducting feasibility studies, demonstration projects and 
market research to understand how to access urban consumers.
3. LWork With and Investing in Land Management Agencies
    Collaboration takes time and trust. Community-based organizations 
are willing and able to undertake long-term partnerships with the 
Forest Service and other agencies. However, these agencies have limited 
capacity to partner with community groups and other external partners. 
Forest Service staff is constrained in their attempts to provide 
funding, direction, incentives, and rewards, because they are trying to 
meet today's challenges with yesterday's tools.
    There are several opportunities to improve the ability of 
communities to work with the Forest Service and other agencies:
    <bullet> LIncrease access to information. Often when new directives 
come through the Agency it is difficult for field staff and communities 
to get consistent and timely information about what is expected. There 
is a lack of accountability and rewards to ensure that new directives 
are followed. By strengthening partnerships with nonprofits, we can 
work together to improve information flow. Often, nonprofits are able 
to get information from a variety of sources and get it into the hands 
of community partners and ironically, sometimes into the hands of field 
level agency staff.
    <bullet> LProvide clarity on existing and new authorities. There 
seem to be numerous interpretations and comfort levels in using 
different contracting arrangements to achieve the goal of restoration. 
There needs to be more clarity and consistency of interpretation to 
ensure that communities and agencies can work together in project 
planning and implementation. When there are various interpretations of 
the flexibility new authorities provide it is confusing to communities, 
businesses, and Forest Service staff.
    <bullet> LPromote Agency staff in-place. Forest Service staff are 
frequently shifted from project to project or promoted out of the local 
area. Forest Service staffs need to be able to be promoted to increase 
consistency. Too often projects are delayed or redirected because a new 
person is in place and isn't yet comfortable with the new way of doing 
business.
    <bullet> LCongress needs to fully fund the Forest Service and 
regulatory agencies, like the Fish and Wildlife Service. Staff 
reductions at the field level have hampered their ability to work 
collaboratively with communities. While this is a problem across the 
board, there is a need to focus on the contracting staff and increasing 
the ability of the agency to complete NEPA accurately and in a timely 
manner. In the Northwest projects have almost come to a halt because of 
the agencies lack of capacity to complete consultation and survey and 
manage correctly and efficiently. Working in partnership takes time and 
the agencies need the staff to be good partners.
    <bullet> LGive the Agencies direction and support to monitor 
ecological, social, and economic conditions. Monitoring needs to be 
done in partnership with communities and other external partners to 
ensure that learning takes place and adaptive management occurs. As 
mentioned earlier, the need for monitoring of social and economic 
conditions is critical to understanding the interdependence between the 
health of our forests and communities. Partnerships with nonprofits, 
universities and others is important to make research relevant to 
communities and local forest conditions. Further, these type of 
partnerships could also help the Forest Service conduct a full 
accounting of the range of ecological services provided by our public 
lands, such as water, energy conservation, clean air, carbon 
sequestration, and others.
    <bullet> LSupport the Forest Service Economic Action Programs 
(EAP). The Economic Action Programs, specifically the Rural Communities 
Assistance and the Forest Products Conservation and Recycling (FPCR), 
are essential to the success of rural communities in building their 
capacity. There is probably not a better use of federal dollars then to 
invest in Economic Action Programs. Unfortunately, this program is 
chronically under-funded and earmarked for a variety of projects, 
mostly unrelated to the program purpose. For example, in fiscal year 
2001 of the 30 million allocated for the Economic Action Programs, 
approximately two-thirds were ear-marked for other purposes. This year 
there will be an infusion of EAP funds through the National Fire Plan, 
which is very appreciated. We hope this will demonstrate the benefit of 
making a long-term commitment to this program. Furthermore, the EAP are 
inadequately staffed; for example, nationwide, there are only about 6 
fulltime staff dedicated to working in Forest Products Conservation and 
Recycling, with key regions having vacancies in this position.
    <bullet> LContinue Support for Stewardship Contracting. One 
critical factor in building a restoration economy is changing the 
contracting mechanisms used by the Forest Service. Traditional timber 
sale contracts are focused on outputs. When the land management goal is 
restoration, a different contracting mechanism is needed to ensure that 
the objectives are reached. Stewardship Contracting is a collection of 
mechanisms that can be used to integrate the ecological integrity of 
public forestlands and the well-being of rural communities. The Forest 
Service can utilize it to create contracts for high-skill, high wage, 
long duration jobs, training and capacity building by focusing a larger 
percentage of the contracts on the best value system, rather then 
lowest bid. A continuing challenge for communities working on this 
issue is the agency's lack of clarity in how to use the various tools 
and their lack of confidence in what is permissible and what is not.
       LWe are in the process of learning about the effectiveness of 
various Stewardship Contracting mechanisms through the 28 Stewardship 
Pilots authorized by Congress. It is critical that the all-party 
monitoring process required for those pilots be supported so we can 
translate the lessons learned to real solutions in contracting. We hope 
you will have an oversight hearing, after this year's field season, to 
evaluate the success of those efforts.
       LAs a final note on this topic we believe it is safe to say the 
communities that are working on Stewardship Contracting are generally 
groups of diverse people who came together initially around more 
general forest related issues. Rural Community Assistance dollars 
helped build the capacity of these groups and positioned them to work 
on the complex array of projects that Stewardship Contracting affords. 
It is important to recognize that programs like RCA can help the 
National Forest System learn to work in partnership with communities.
    <bullet> LContinue Support for the Wyden Amendment. The Wyden 
Amendment allows the Forest Service to work more holistically across 
ownership boundaries. This tool is critical to effective watershed 
restoration. We hope that the use of this tool will be secured and more 
widely applied.
    <bullet> LSupport Innovative Funding of Restoration. Senate Bill 
597 was recently introduced that directs certain hydroelectric charges 
to be used to support restoration activities such as, recovery of 
threatened and endangered species, watershed analysis, multiparty 
monitoring. This bill also directs that employment and job training 
opportunities be offered to rural communities near the restoration 
project. This is an example of the type of linkages we need to make to 
ensure that we build an ecologically and socially responsible 
conservation-based economy.
Conclusions
    Thank you for the opportunity to share our experiences in working 
with rural communities and businesses and our efforts to create a 
restoration economy built on the principles of sustainability. While 
many of the issues we have raised relate to appropriations, we believe 
it is important that the Resources Committee advocate for these 
important programs in addition to providing the Forest Service with 
direction and authority to conduct its business.
    The main messages we would like to leave with you are:
    The way in which we care for the land directly affects the well-
being of rural communities. When our forests are healthy, we believe 
our communities are better off. For us, there is a strong correlation 
between degraded land and poverty in rural communities. We need to 
restructure the way we take care of the land to create a healthy 
interdependence. This will take time and its success depends on 
communities, land management agencies, environmentalists, industry, and 
others working together to find solutions.
                                 ______
                                 
    Mr. McInnis. Mr. KenCairn, you may proceed.

  STATEMENT OF BRETT KENCAIRN, DIRECTOR, INDIGENOUS COMMUNITY 
                          ENTERPRISES

    Mr. KenCairn. Good morning, Mr. Chairman, and members of 
the Subcommittee. I bring you greetings from the deserts and 
forests of Arizona.
    My name is Brett KenCairn. I work for Indigenous Community 
Enterprises at Northern Arizona University. I will describe 
more of that work at Tuesday's hearing. Today I have been asked 
to testify regarding my experience with the agencies in 
collaboration, so I will focus my remarks there.
    You have a paper that I've written, entitled ``Public 
Agencies in Collaboration'', and most of my remarks come from 
that. In today's testimony I would like to focus on seven of 
the recommendations made there.
    First of all, I would make the summary statement that my 
experience has been that, despite their best intentions, the 
agencies have not been effective collaborators in partnerships 
with communities. Moreover, this is, in fact, jeopardizing the 
well-being of both forests and communities and, in fact, 
questions the credibility of collaboration and stewardship more 
broadly.
    As a consequence, I would like to suggest the following. 
First of all, agencies must be given adequate resources to 
collaborate. Collaboration almost always takes more time and 
effort, and frequently we are dealing with an agency so 
downsized that they simply cannot participate effectively.
    Secondly, innovators and risk-takers within that agency 
need to be given support, perhaps even line officer authority, 
and we need to be selecting those folks to participate in 
collaborations based on competence and motivation, not simply 
because they don't have something else to do.
    Third, often it has been my experience that the Washington 
office and regional levels do not maintain an adequate 
attentiveness to the activities of these collaborations. I have 
been a part of two collaborations, both the Applegate 
Partnership and the Grand Canyon Forest Partnership, both of 
whom had very high profile, public embarrassments in which 
regional offices sided in favor of environmental appeals on 
issues that could easily have been resolved if they had been 
discussed beforehand.
    Fourth, again, we need to fund the Economic Action Programs 
and recognize that that's one of your most effective tools at 
spawning and supporting innovation at the community level. We 
also need to recognize that this is not simply a problem of the 
West, but that issues like the south and the southeast have 
substantial issues that could also be effectively addressed 
through this program.
    Also, I think the Congress and the agencies need to 
recognize that collaboration is not the solution in total to 
the public participation issues. There are many groups that 
have legitimate issues that will not be participating in the 
collaborative process, and if we do not actively work to reach 
out to those groups in other forums, we will continue to have 
the conflicts that we're seeing.
    Five, we need to also recognize that scale is at the heart 
of much of the conflict over forestry, both in terms of the 
scale of implementation and the scale of economic alternatives 
that are being selected to work on this.
    I have heard repeatedly agencies, and even members of my 
own group, who consistently try to dismiss those who are 
concerned about commercial motives driving forestry when, in 
fact, I think we have failed to adequately respond to those 
issues. We all know that if you come in with a substantial 
amount of capital, and you have investors who are relying on 
you producing a certain amount, you're going to begin to exert 
some influence over supply. Therefore, we need to develop 
safeguards that protect both forests and communities from that 
kind of unrestrained economic concern.
    We would like to see Congress actually develop some kind of 
advisory committee or task force that could develop a specific 
series of recommendations that would protect communities and 
forests from that kind of unrestrained economic interest.
    Finally, I think we also need to recognize the impact of 
other policies as they reflect on forest management and 
communities, trade policies in particular. One of the 
interesting consequences of being a part of this network is, as 
we have shared stories, we realize that things like NAFTA have 
had an inordinate influence on our communities. In many cases, 
in fact, the remaining infrastructure that we've had, in terms 
of forest products, has been driven out of business by NAFTA. 
We need to recognize--in fact, I would suggest that Congress 
order a study to see how those trade policies are affecting our 
ability to implement both forest management and to protect 
community well-beings.
    Let me just conclude by responding to a question that I 
hear frequently: Why should we care about rural communities and 
continue to invest in them? Often I hear the statement that 
perhaps it's a regrettable but inevitable consequence that 
rural communities would disappear because of modernization and 
globalization. But it has been my experience--and I think this 
is confirmed in both cultural anthropology and restoration 
ecology and many other fields--that it is a well-skilled people 
living in close proximity to the land, supported by an adequate 
and appropriately scaled infrastructure, that can adequately 
implement restoration and forest stewardship. If we do not 
protect our rural communities, we will not have that base of 
infrastructure that will be able to actually support these 
forests and their restoration.
    We believe that the existing infrastructure of rural 
communities is the most logical foundation upon which to build 
a stewardship and restoration economy.
    I would like to conclude by saying that I believe the 
community forestry movement has the guts, the brains, and the 
heart to be a part of pioneering a new approach to stewardship 
of both forests and communities, and we look forward to working 
much more closely with you in bringing that into being.
    Thank you.
    [The prepared statement of Mr. KenCairn follows:]

Statement of Brett KenCairn, Director, Indigenous Community Enterprises

    Dear Mr. Chairman and members of the Subcommittee:
    Good morning, my name is Brett KenCairn. I am the Executive 
Director of Indigenous Community Enterprises, a non-profit organization 
based at Northern Arizona University in Flagstaff, Arizona. ICE was 
founded to work with tribes in northern Arizona to identify new 
economic development opportunities utilizing the small diameter wood 
resources being removed in thinning and forest restoration treatments. 
Our first product is affordable housing for Navajos in the shape of 
traditional hogans. The project is creating a state-of-the art pole 
processing infrastructure that will be used to develop a much larger 
set of products using the thinning products most difficult to 
economically remove, particularly material less than 9 in diameter.
    Before helping to found ICE, I was the Director for the Grand 
Canyon Forests Foundation, the non-profit organization founded to 
coordinate restoration activities in the urban wildland interface 
around Flagstaff. I have also worked for over 10 years in the Pacific 
Northwest as Director of the Rogue Institute for Ecology and Economy. 
In this capacity I was a founding member of the Applegate Partnership 
and a variety of other natural resource collaborations in that area. I 
am founding member of the National Network of Forest Practitioners and 
am familiar with many of the leaders of partnerships and collaborations 
around the West.
    From this base of experience I make the following observations 
regarding collaboration in public lands management:
    <bullet> LI believe collaborative processes have great promise for 
developing innovative approaches to land management.
    <bullet> LHowever, federal land management agencies, particularly 
the Forest Service, is consistently failing to be an effective partner 
in these forest management collaboratives for the following reasons
      * LAgency delays and inconclusive planning processes are using up 
the limited supply of volunteer time and hope existing in rural 
communities.
      * LLong delays in implementing projects are resulting in the loss 
of the limited base of industrial infrastructure left in these 
communities.
      * LFrequent errors and missteps are discrediting the notion of 
community-based conservation both locally and nationally.
    <bullet> LThis failure jeopardizes the well-being of many of the 
participating rural communities and is substantially undermining the 
public credibility of community-based organizations in their attempt to 
champion active stewardship and restoration of public lands.
    <bullet> LThere are a series of steps that can substantially 
improve the effectiveness of collaborative efforts.
    I have attached a report I wrote for the Forest Service entitled 
``Public Agencies in Collaboration: Panacea to Gridlock or the Next Big 
Debacle.'' This report outlines five case studies profiling many of the 
problems consistently being experienced by community forestry advocates 
across the country. It is also summarizes the views of over a dozen 
community forestry advocates across the West and offers 17 
recommendations for improving agency performance in collaboration.
    In my time remaining, I would like to highlight 5 of these 
recommendations for your consideration.
Recommendations
    Demonstrate Agency commitment to collaboration at the top by 
insuring and promoting support for innovators and risk takers. The best 
collaborative work taking place in the agencies right now is the result 
of a few brave risk takers that often have to work against huge 
institutional resistance to make effective partnerships work. The 
agency must create a culture that supports and encourages this type of 
innovation. This may requiring the established liaisons to priority 
collaboratives. These will need to be individuals with a high degree of 
commitment and personal investment in these efforts and line officer or 
greater authority level.
    Provide Agencies with adequate resources and training to be 
effective partners. Despite the best intentions of many agency units, 
they cannot be effective partners in collaboratives because they lack 
two key resources: training in how to be effective collaborators, and 
money and personnel to support their roles in these projects. If 
Congress wants agencies to be more effective partners, it must provide 
the agencies with adequate resources to do so. This may require a 
specific national line item in the Forest Service budget to support 
staff working specifically community-based collaboratives.
    Develop more proactive outreach to key stakeholders, especially 
personal and informal. Too many collaboratives and partnerships assume 
that their obligation for involvement is fulfilled by simply issuing 
invitations to participate in formal group meetings. Very often the 
groups most likely to challenge the work of these initiatives will not 
participate despite such invitations. If agencies want to be effective, 
they must recognize that involvement requires both formal and informal 
outreach. Agency line officers, Supervisors and Regional Foresters 
should be expected to and evaluated on their conducting regular ongoing 
informal contact with their most outspoken and effective critics to 
establish and maintain effective communication.
    Develop safeguards that prevent preoccupation with economic 
efficiency and profit maximizing from exploiting forests and 
communities. One of the issues that the agencies has consistently 
failed to respond directly to is the role of commercial motives and 
economic efficiencies in implementing forestry and restoration 
activities. Consistently we hear agencies and others attempt to dismiss 
the Zero-cut activists and those who question commercial uses of public 
land resources as simply out of touch with reality. This dismissal 
fails to recognize how significant and pervasive this distrust of 
commercial motives runs in the broader public. A recent Business Week 
front cover stated that over 60% of the American public now distrusts 
corporations and their commitment to civic responsibility. Backlash 
against Home Depot and other forestry and wood products firms is also 
an indication of growing public skepticism of commercial motives in 
forestry.
    We need to recognize the historical legitimacy of this concern. 
Much of the past management of public forest was based on maximizing 
timber harvests. At the same time the average wage in rural communities 
was dropping into the basement due to agency lowest bidder contracting 
mechanisms designed to maximize economic efficiency. If we are to 
rebuild public confidence, Congress needs to seek balanced council on 
how to protect both forests and communities from the unrestrained 
preoccupation with economic returns. Congress should direct the 
formation of special task force or advisory committee comprising all of 
the major interests affected by this issue needs to formulate a set of 
safeguards that can protect both forests and communities.
    Develop relevant measures of success with the public. Fund 
monitoring, both ecological and social/economic. Without extensive and 
clearly defined monitoring programs, both ecological and social/
economic, there will be no way to assure a skeptical public that the 
Agency is really conducting activities that are beneficial to the land 
and communities. Others have emphasized the importance of developing 
robust ecological monitoring programs. Most efforts, however, have 
little or no clear criteria for evaluating the quality and durability 
of purported economic benefits. More than the number of jobs created, 
we need to know: what these jobs pay (including benefit availability): 
what kinds of skills and abilities they require or develop in the local 
workforce: who will get the jobs (local, migrant, imported); how long 
they are likely to last and the key factors in their durability (public 
subsidies, market forces, mobility of the target industry); and where 
the profits generated by these labors will be deposited will they be 
retained locally, or will they be exported; what the impact on local 
services and infrastructure will be; what the likelihood is of the 
enterprises being locally owned and controlled or foreign (external to 
the community) controlled.
    Finally, as a collective of community-based forestry initiatives, 
we are becoming increasingly aware of how larger policies, particularly 
trade, are adversely affecting both forests and communities. The 
passage of NAFTA and its impact on the trade of wood products in 
particular are responsible for dismantling much of what remains of the 
forest products infrastructure in our communities.
    The loss of rural communities is seen as the regrettable but 
inevitable result of the modernization and globalization of trade. What 
we are rapidly learning, however, is that the maintenance of healthy 
forest ecosystems requires a sustained investment by a well-trained 
workforce supported by an adequate infrastructure that can utilize the 
byproducts of this stewardship. The existing infrastructure of rural 
communities is the most logical and effective foundation from which to 
implement and maintain this preventative maintenance and stewardship. 
Without them, many ecosystems will continue to unravel, fires like 
those in Los Alamos will become common, and the larger health and well 
being of both American lands and American communities will suffer. The 
perceived benefits of free trade must be considered in this larger view 
of consequences and effects.
    To bring these issues back home, Indigenous Community Enterprises 
is designed to make use of the most difficult to utilize byproducts 
from forest restoration (trees less than 9 in diameter). We are using 
limited amounts of public money to leverage over $750,000 in private an 
charitable investments in the creation of a local enterprise and local 
workforce capacity to create new uses, particularly affordable housing, 
from materials the agency currently can't afford to take out of the 
woods. We will create employment and affordable housing in rural 
communities with over 40% unemployment, a per capita income 1/3 of the 
national average, and a high school drop out rate approaching 50%.
    If however, Congress and the agencies do not make a significant and 
sustained investment in supporting and protecting these community-based 
efforts, we will likely witness the continued deterioration of both the 
forests and the forest-based communities of the American West.
    I appreciate the opportunity to have made this presentation in 
front of you today. I would be happy to answer any questions regarding 
the issues I have raised before you today.
                                 ______
                                 
    [The report ``Public Agencies in Collaboration: Panacea to 
Gridlock or the Next Big Debacle,'' by Mr. KenCairn has been 
retained in the Committee files.]

    Mr. McInnis. Thank you, Mr. KenCairn.
    Mr. Madrone.

 STATEMENT OF SUNGNOME MADRONE, DIRECTOR OF NATURAL RESOURCES 
          SERVICES OF REDWOOD COMMUNITY ACTION AGENCY

    Mr. Madrone. Thank you, Mr. Chairman, and members of the 
Subcommittee. I appreciate the opportunity to be here today 
with you.
    My name is Sungnome Madrone, and I'm the Director of 
Natural Resources Services of Redwood Community Action Agency, 
or RCAA. It's a community action program in northwest 
California. CAP programs are all over the country, but there 
are very few that have natural resource programs. We created it 
because we wanted to help renew the health and wealth of our 
natural resource base, and that would ultimately help our 
community to become more self-reliant.
    I am also a regional watershed coordinator for the three 
northern coastal counties of California, and I have been doing 
this kind of work for 28 years, ever since the Redwood National 
Park expansion effort in the 1970's.
    In that 28 years, or in the 20 years at RCAA, we have 
completed over 350 projects in watershed restoration. Of those 
350, 100 of them were completed in the last 6 years, using 
cooperative agreements in the Jobs in the Woods Program with 
the Forest Service and the BLM, primarily involved in road 
decommissioning and large-scale watershed restoration efforts, 
working with displaced heavy equipment operators, giving them 
the new training and the new science in this work.
    It has been a very rewarding experience and we continue to 
have an agreement with BLM, but at this point our agreement 
with the Forest Service has not been renewed, but we're very 
hopeful that that is going to be renewed. We are hopeful of the 
strike team's efforts and the effort with the tool box that the 
Forest Service has developed to go around the country and help 
forest supervisors and others understand the authorities they 
have to do these cooperative programs.
    The self-worth that I spoke about, in our communities a lot 
of the forest workers and loggers have really been beaten up a 
lot over the last 20 years. This work of restoring the 
watershed is helping them with a feeling of self-worth 
returning to themselves and their families. They take great 
pride in this work.
    It is full-circle training that we're doing. We're not just 
training these operators. They're training us, and together 
we're helping to train the government on how to do an effective 
collaboration between the private and the public sectors.
    We are also bringing forth a conservation ethic and a 
stewardship approach to all of this work. None of these 
projects are using the stewardship pilot authorities. Yet, 
every one of these projects had stewardship-like ethics and 
stewardship results by the technique of using cooperative 
agreements. There are many tools, and those are two of them.
    Comprehensive training is needed, and again, I really look 
forward to the training the Forest Service is bringing to the 
table. Again, as community practitioners, we intend to bring 
the whole element of the community training to the table at the 
same time.
    A couple of barriers out there and some solutions. One of 
the barriers to many who work around the country is a lack of 
program support. There is a lot of project dollars out there, 
but it's very difficult for watershed councils and restoration 
community practitioners to get program dollars. So I recommend 
that Congress develop a natural resources block grand program, 
similar to the community services block grant program, that has 
so successfully sustained the community action networks in this 
country for over 30 years.
    There is disincentives--and I appreciate Congressman 
Duncan's comments earlier about the disincentives. That plays 
mostly into the private sector. But why we need incentives is 
to take some of the pressure off of our public lands and to be 
clear that, when we're talking forestry, we're working with all 
of the forests of the country. It is incentives in the tax 
codes and permit systems that will help those land owners in 
private sectors invest into this new industry.
    Third is land use planning. In this country, all of our 
county land use plans are based on geopolitical boundaries. We 
need to have land use planning that is based on watershed 
principles and watershed boundaries. EPA had a program called 
the Sustainable Economic Development Program that could fund 
those kinds of planning efforts, but it didn't receive any 
appropriations in the last couple of years.
    Fourth is co-op agreements. We need to amend the 
participating agreement authorities and bring them in line with 
an ability to be able to train our workers and to collaborate 
effectively.
    Also, we need to extend the Wyden amendment and the Title 
IV authorities and make them permanent. One year at a time 
doesn't work. We need permanent authorities for those 
collaborative tools.
    Lastly, there has been a lack of funding in Jobs in the 
Woods lately. We would like to see Jobs in the Woods replicated 
across the whole country.
    So that's the last piece I wanted to leave you with, and 
again, with your help, we will continue to restore our forests 
and our communities. I appreciate this opportunity, Mr. 
Chairman. Thank you.
    [The prepared statement of Mr. Madrone follows:]

Statement of Sungnome Madrone, Director of Natural Resources Services, 
                    Redwood Community Action Agency

    Dear Mr. Chairman and members of the Subcommittee:
    My name is Sungnome Madrone, and I am the Director of Natural 
Resources Services (NRS), a Division of Redwood Community Action Agency 
(RCAA). RCAA is one of only a few community action programs (CAPs) in 
the US with a natural resources program. We combine the CAP mission of 
helping communities and individuals become more self-reliant with the 
stewardship ethics of community-based ecosystem management (CBEM). By 
helping to improve the health and wealth of our natural resources we 
believe our social service work will become more sustainable. For the 
past twenty years our organization has assisted and engaged our local 
community. In that time the NRS division has completed over 350 
projects in ecosystem management in rural, wild-land, and urban 
settings, as well as on public and private land. This broad base of 
projects, completed over a long period of time, gives us a unique 
perspective on CBEM. There have been many successes, some failures, 
much learned, and much more opportunity still to explore.
    My comments are based on this experience and 10 more years 
experience before RCAA. In the 1970!s and early 80!s I was involved 
with the expansion and restoration of Redwood National Park, as well as 
the creation of the Mattole Restoration Council. These efforts were 
early forays into CBEM and much has been learned along the way.
    We thank the Chairman and the Subcommittee for holding this 
hearing. It is an important forum for local and national interests to 
discuss what is being learned across the country. In our area these new 
efforts have brought great hope. Jobs have been created and a new 
industry is emerging. Woods and mill workers are beginning to be re-
employed and a brighter future is emerging for them and their families. 
Self worth is returning and communities are trying to move past the 
polarizing past.
    The procurement tool used dictates stewardship or not. For the past 
six years RCAAs NRS division has been engaged in stewardship-like 
contracting and CBEM training programs with the USFS, BLM, and multiple 
other state, local and private parties. We were also actively involved 
in displaced worker training programs in 1978 after the expansion of 
Redwood National Park and in the mid 80!s with Native American woods 
worker training programs. Through these direct experiences we have 
gained valuable insights into what is working and what is not. We have 
been involved with an array of procurement tools over that time and I 
am convinced that the tool used dictates stewardship or not.
    You can't get collaboration, cooperation, and quality stewardship 
with a procurement tool that dictates divisive competition and 
adversarial relationships. What is important is to use tools that 
encourage stewardship ethic. Often we have focused on the Stewardship 
Pilots authorized under Section 347 of the Interior Appropriations Bill 
fiscal year 1999. Stewardship contracting is actually much broader than 
these pilots currently being implemented around the country. There is a 
lot of opportunity to encourage stewardship ethics in more projects, 
than just the pilots.
Our Experience in Stewardship-like Contracting and CBEM
    So how have these new federal strategies of collaborative 
stewardship been working? From our perspective from our little corner 
of the world there have been many successes, much has been learned, but 
significant barriers still exist.
    Projects have been completed and environments restored; training 
has been given and jobs created; new procurement tools have been 
developed and advances in value-added product manufacturing have been 
made; new public-private partnerships have formed and collaboration has 
reached a new level of bi-partisanship; these are all great successes 
and only the beginning of a transition to a way of doing business in 
the future.
    Unfortunately, barriers to stewardship work still exist. Often 
these are just attitude or mind-set, but sometimes they are imbedded in 
existing authorities. We can overcome these obstacles by increasing our 
knowledge base of opportunities and through comprehensive training in 
the private and public sectors.
Cooperative Agreements
    While RCAA has not had a stewardship contract pilot per say, we 
have implemented nearly 100 projects, for a total of over $3 million 
dollars in contracts with the USFS and the BLM in stewardship-like 
contracting over the past six years. All of these projects have been 
implemented using existing cooperative agreement authorities. These 
authorities have allowed us to develop a number of new public-private 
partnerships and implement a wide array of CBEM projects. These 
projects have ranged from inventory, analysis, and design, to 
implementation and monitoring of CBEM projects.For the most part the 
existing authorities have worked well. Their use varies across regions 
and in some cases the BLM has embraced the concepts and tools of CBEM 
more vigorously than the USFS. In some regions the USFS seems to be in 
the lead with innovation and partnership development. More often than 
not, these barriers are in attitude and mind-set, in particular with 
the contracting officers, who although well meaning, often become a 
barrier when that is not necessary. In some cases the authorities 
themselves are the barriers.
    The USFS's planned efforts to provide comprehensive training to 
regions around the country should be supported and applauded. It is one 
way to change the attitudes of contracting officers and others and 
build their knowledge and skill level. The USFS/BLM development of a 
tool box and an assistance or strike team to explain and teach proper 
use of these existing and emerging authorities is well conceived. We 
are working on developing the complimentary support and training 
systems for the non-governmental and tribal components of this growing 
collaborate training. Our efforts are at the local, regional, state, 
and national levels and these hearings are a part of that effort.
    The primary authorities we have used for cooperative projects are 
contained in the Cooperative Funds and Deposits Act of December 
12,1975, Public Law 94-148 (16 U.S.C. 565, a-1-565, a-3). The authority 
is generally adequate to develop cooperative agreements, but the 
application of the authority and its results have been as varied as the 
people and landscapes of this country. The most recent Participating 
Agreement (PA) offered to Region 5 partners contained the following 
statement: As a consequence of this productive and harmonious six year 
working relationship, the parties have expressed an interest in and 
desire to continue their active collaboration. Both acknowledge that 
the conduct of effective and meaningful job training and development 
activities coupled with individual skill enhancement and the creation 
of employment opportunities is of paramount importance. Thus the single 
objective of this successor agreement is the creation of diversified 
training experiences for the residents of Humboldt/Trinity County.
    While these words clearly convey success and willingness, it is 
unfortunate that the language used in the balance of the PA does not 
match this statement with action. There are very real barriers placed 
on these agreements. Some of these barriers need attention from 
Congress and some of them need to be dealt with through the USFS/BLM's 
comprehensive training programs being implemented soon.
    One of the barriers is contained in the Grants and Agreements 
Handbook Sections 1585-1587, pg. 19 of 30 of the WO Amendments 1500-95-
5, effective 4/21/95. Under 7. Applicability of Contracting, b. 
Cooperator Contracts, it states that When the work is not jointly 
performed and the cooperator contemplates contracting all or part of 
the work, the cooperator must provide a substantial cash contribution 
(50 percent or more) towards the cost of the contract. The Forest 
Service is required to award the contract in situations where the 
cooperators cash contribution is less than 50%.
    While this authority is clear in terms of attempting to prevent an 
abuse of cooperative agreement authority (where a contract might be 
simply passed through a NGO to a for profit contractor, without any 
mutual benefit to the government), it does not provide clarity for 
collaborative training efforts. An example of such an opportunity might 
be one that would involve a cooperator subcontracting out work without 
a 50% match and yet due to their training expertise or other 
capacities, there may be significant benefit to the government to do 
so.
    The above requirement for a 50% match on cooperator subcontracted 
work has led to the elimination of some of the most successful 
displaced forest worker training programs in the Pacific Northwest. 
This training is for heavy equipment operators doing road 
decommissioning and erosion proofing. There is an ever-increasing 
demand for this training as restorative work spreads across the public 
and private landscapes. The models have been developed to provide this 
training and your help is now needed to modify or clarify these 
authorities under the Cooperative Funds and Deposits Act of 1975.
    The following new wording is recommended for 7. B. Cooperator 
Contracts.
    If the work is mutually performed, and the cooperator contemplates 
contracting all or part of the work, the cooperator may provide less 
than 50%, although not less than 20%, toward the cost of the contract, 
if the benefit provided by the cooperator provides significant value to 
the government by way of implementing critical training programs in a 
timely manner. When considering the cost share required of the 
cooperator the USFS will highly value, although sometimes difficult to 
quantify, the opportunities created through willing partnerships to 
accomplish mutual objectives. These values can be used as the required 
match.
    This simple change would allow NGOs and tribal entities to 
effectively partner with the USF, BLM, and other federal agencies 
across the country. These productive and respectful relationships will 
lead to bi-partisan support for sustainable economic development and 
environmental restoration and protection.
The Need for Training and Capacity Building is Great
    With your help to remove remaining barriers to collaboration, and 
with the USFS and BLM's continued commitment to CBEM and comprehensive 
training of its employees, we will succeed at restoring our watersheds 
and our communities. The demand for CBEM is increasing. As a regional 
watershed coordinator for a three county area in NW coastal California, 
funded through a contract with For the Sake of Salmon (FSOS), we hear 
over and over again the need for qualified training of CBEM workers. 
Funding for CBEM work is increasing at the state and federal levels, 
but unfortunately it is mostly project dollars. What is missing is 
funding for collaborative training programs in CBEM and general program 
support funding for cooperators willing to collaborate for community 
benefits.
Sustainable Capacity Building Funding Needed-Natural Resources Block 
        Grants (NRBGs)
    As the need for a trained workforce in CBEM continues to grow, the 
need for program support funding for the private collaborators becomes 
even more critical. Most of the funding is for project specific work, 
not for programs. Increased funding through a predictable means is 
needed. A solution may be the creation of a Natural Resources Block 
Grant Program (NRBGs), similar to the Community Services Block Grants 
Programs that have been a part of the CAP world for decades thanks to 
ongoing support from Congress.
    A parallel program of NRBGs could provide a crucial missing link to 
qualifying NGOs such as 501-c-3 watershed councils, land trusts, and 
road maintenance associations. NRBGs could provide funding for general 
program support allowing a NGO to invest in public-private partnerships 
and collaborative efforts. Stabilizing program support funding allows a 
NGO to expand its efforts incrementally to accomplish more than ever 
imagined.
    At RCAA, a CAP since 1980, we have received a $160,000 a year CSBG 
grant for general program support. In the early 80!s this $160,000 was 
about 8% of our total gross program budget. The CSBG grant today is 
still $160,000, but RCAA has used that kernel of program support to 
build one of the most successful CAP programs in the US. Today that 
CSBG seed money is only 1% of our total program budget of about 
$16,000,000 per year.
    This is the kind of leverage that can be expected of a NRBG 
program. These block grant programs have history. They work well and 
they help to maximize the potentials for collaboration.
Watershed-based Land Use Planning Needed-Sustainable Economic 
        Development
    Another barrier to CBEM is the way that all land use planning is 
done in this country. All local land use plans are based on geo-
political boundaries and old principles of development. Our restorative 
efforts for our watersheds and our communities will be for not if we 
continue to operate with modes of planning that are not holistic. 
Funding is needed to support the creation of new land use planning 
models that are based on watershed boundaries and principles and are 
coupled with sustainable economic development concepts. One such 
program in EPA was the Sustainable Economic Development Program, which 
did not receive any appropriations the past two years and was therefore 
canceled. We recommend that you provide ongoing funding for these 
innovative programs that seek real long-term solutions. Without sound 
watershed-based land use planning, all of the stewardship pilots and 
CBEM efforts in the world, will not save us from ourselves.
Incentive Based Approaches
    The number one barrier to private sector investments in CBEM are 
the plethora of disincentives that are laced throughout our tax codes 
and permit systems, and the lack of effective incentives for 
stewardship. What is needed here is a revamping of tax code and permit 
requirements to encourage stewardship and provide direct economic 
benefit to the private landowner that manages their land sustainably 
and with endangered species present. Without incentives and good land 
use planning, we will always be putting Humpty Dumpty back together 
again. Restoration is not sustainable, only prevention is. It is time 
for change. We ask for your continued help.
    Thank you for the opportunity to share our views on CBEM and 
collaboration. Once again, we thank the Subcommittee for its ongoing 
interest in these issues.
                                 ______
                                 
    Mr. McInnis. To this point, I have found the testimony of 
the panel very impressive. I think you're hitting several 
points right on target.
    Our next guest is Mr. Ward. Mr. Ward, you are to be 
congratulated. The extensive and difficult efforts of you and 
your wife, Mrs. Ward, have proved very successful. Your bill on 
the Continental Divide Trail was one of the first bills passed 
out of the House this year. For the panel's awareness, I also 
have had experience in the Colorado canyons, in the great sand 
dunes, in the Spanish peaks and, of course, the Continental 
Divide Trail, and this kind of community partnership. I 
consider Mr. Ward one of the leading advocates and one of the 
leaders in Colorado in regards to that kind of community 
effort.
    Mr. Ward, you may proceed.

STATEMENT OF BRUCE WARD, EXECUTIVE DIRECTOR, CONTINENTAL DIVIDE 
                      TRAIL ALLIANCE, INC.

    Mr. Ward. Thank you very much, Congressman. I literally 
wouldn't be here without you, in many ways, so I really 
appreciate not only the opportunity to come and speak to this 
panel, but the composition of the panel. If you could just get 
the Congressman from Montana on board, we would have the whole 
line-up of the states that the Trail goes through.
    I spent a lot of time thinking about what I would say in 
the relatively short amount of time that I have, and so I went 
to my ``quotation area'' and started looking for quotes that 
would somehow say, maybe more articulately than I could, why 
I'm here and what it is that our organization represents.
    I came up with two that I think really sum it up. One of 
them comes out of our volunteer guide. We will do over 40 
volunteer projects from Canada to Mexico this year. We will 
literally have people from all over the country assisting us in 
this effort.
    Last year, our Volunteer of the Year--we have a quote in 
that guide. It says, ``It is not often that something this big, 
this beautiful, and this rewarding, grabs me by the shirt 
collar and demands my attention. That's how it has been since 
the first moment I heard of the Continental Divide Trail. 
Perhaps at no other time will I have the opportunity to be 
involved in a grassroots movement to save and share one of the 
world's greatest treasures. What could be more worthwhile? What 
could be a better use of my time?''
    I feel that I'm here representing the volunteers who care 
about our public lands, about the land managers, many of them 
who are trying very hard to be good stewards but are finding a 
number of reasons that they aren't able to get the job done, 
and those members of the private sector, the corporations that 
have donated over $3 million to this effort, that are looking 
for ways to give back. We need to find ways to make it easier 
for them and to reward them for those efforts.
    The other quote, which really sort of speaks to my 
testimony, comes from a woman by the name of Beth Timson. I 
think it's particularly appropriate. She said, ``When you work 
in a bureaucracy trying to make program changes, it sometimes 
seems like trying to slow dance with a cow. It's not much fun, 
it annoys the cow, and you step in a lot of manure.''
    I think that that's, unfortunately, the situation that we 
have come across, that there are a lot of people out there who 
recognize the value in what we're doing and understand the 
importance of this effort, but the bureaucracy gets in the way. 
I think that's really partially why we're here, trying to 
address these issues.
    Briefly, I just wanted to mention some of the success 
stories that have occurred on the Continental Divide Trail. Two 
years ago we had an effort called Uniting Along the Divide, 500 
volunteers, Canada to Mexico, hiking, horseback riding, 
mountain biking, doing a lot of work that the land management 
agencies just didn't have the resources to do. It would have 
cost the Federal Government tens of thousands of dollars. Maybe 
that's not much money coming from here, but that's a lot of 
money that we've saved the Federal Government because we've 
been able to do that kind of work.
    We gave Ray Hanson, from the BLM, our Agency Person of the 
Year Award because he orchestrated hundreds of miles of trail 
designation utilizing volunteers.
    Tim Pohlman of the Forest Service in Gila National Forest, 
we got a call from a group of students looking to do something 
other than hanging out on the beach during spring break. They 
were looking to do some work on the trail. We sent them down to 
Tim and since that time he's been able to put over $185,000 
worth of work done on his land by these kinds of volunteers. 
These are students in this country, looking for ways to give 
back.
    Lou Tyler of Grand County, Colorado, a retired gentleman, 
who we gave our first Volunteer of the Year Award to. He got up 
in front of a hundred people, a little guy. He spent most of 
his summer working on the trail. He said, ``This trail has 
given my life a whole new meaning.'' He got choked up and 
really felt that his ability to give back was important.
    I got a call from him, saying that he thinks his ability to 
continue to help the Forest Service will be greatly diminished 
because of a lack of attention to the volunteers in the 
recreation programs that we're seeing vastly diminished because 
of other priorities.
    Let me speak, in 30 seconds, to some of the things that we 
see need addressing, which we can't obviously address here, but 
we would certainly like to be a part of the process of dealing 
with them.
    The first one is money to the ground. The money is not 
getting to the ground. ``Taps'' are occurring at every level 
within the agency, and as a result, the people in the field 
just aren't getting the support they need. We don't have the 
staff, we don't have the seasonals, we don't have the 
recreation people. It's a huge problem, especially in the great 
State of Colorado, that has so much interest in recreating on 
our public lands.
    The other issue that we are concerned about is 
accountability. We have been very successful in your efforts to 
give additional funds to the Continental Divide Trail. 
Sometimes finding out how that money was spent is a hard thing 
for us to nail down. But we're doing a very diligent effort--
and you know Paula. She's on them, wanting to make sure that 
all those things are taken into consideration.
    Interagency collaboration is a major issue for us, and 
making sure the recreation agenda that the Forest Service did 
such a great job on gets the full attention and support of this 
Committee that it really needs.
    Thank you.
    [The prepared statement of Mr. Ward follows:]

 Statement of Bruce Ward, Executive Director, Continental Divide Trail 
                             Alliance, Inc.

    Dear Mr. Chairman and members of the Subcommittee:
    Thank you for giving me the opportunity to talk to you about our 
experiences as a partner with the land management agencies, especially 
the USDA Forest Service. My wife Paula, and I have been working on the 
effort to complete and maintain the congressionally designated 
Continental Divide National Scenic Trail since 1994. We helped to found 
the Continental Divide Trail Alliance with then vice-chair of the 
National Forest Foundation, Stephen Fausel. Our organization was 
specifically formed to assist the Forest Service with its congressional 
mandate to complete and maintain this national treasure.
    We have come a long way in a relatively short time, thanks in many 
respects, Mr. Chairman to your encouragement and support. Our successes 
have been many, but yes we are faced with some challenges and 
frustrations.
    I would like to start out by providing a few examples of the 
successes we have had and then turn to areas of concern and problems 
that need to be addressed.
    <bullet> LIn 1997 we coordinated an effort called ``Uniting Along 
the Divide''. This massive volunteer undertaking brought corporate 
supporters, land managers and volunteer organizations together for the 
first time to help us inventory the status of the Trail. It was truly 
an historic event that focused unprecedented involvement on the needs 
of the Trail. It also helped us gain insight as to how our efforts 
could be utilized to assist increasingly hard pressed land managers. 
Since the completion of this effort we have developed a Ten-Year Plan, 
to complete the Trail by the year 2008.
      LRay Hanson, an employee of the Bureau of Land Management in 
Rawlings, Wyoming is a fine example of how volunteer enthusiasm for 
this project could be harnessed. He recruited a variety of users, 
including equestrians, mountain bikers and hikers to investigate 
various routes for a critical linkage of the Trail in southern Wyoming. 
This effort would have cost the federal government thousands of 
dollars. Ray got it done for next to nothing. His efforts earned him 
our Land Manager of the Year award for 1997.
    <bullet> LTim Pohlman, a Forest Service employee on the Gila 
National Forest in New Mexico is another great example of a land 
manager making the most of the momentum we have developed for the CDT, 
often called the ``King of Trails''. We received a call at our office 
from a college in Texas that was seeking to put some of the students to 
work, instead of participating in the usual spring break activities. We 
called Tim and he quickly seized the opportunity to maximize the 
potential of this free labor offer. Since then he has expanded the 
program to include students from many other states as well as from 
overseas. The value of their work is estimated at $185,000 over the 
past three years.
    <bullet> LSteve Stratton, a volunteer from Boulder, Colorado is 
another example of how our organization has accomplished so much with 
minimal resources. Steve called our organization to say that he had 
read about our efforts and felt he just had to be a part of ``our 
cause'' and offered his services. More than just coming out and working 
on the Trail he has helped to develop our ``Adopt-A-Trail'' program and 
in mapping to identify the Trail's needs and help track our progress. 
Essential and ``behind the scenes'' work is being done by Steve.
    <bullet> LLou Tyler is a retiree in Winter Park, Colorado who also 
exemplifies the kind of people that are breathing life into this 
magnificent Trail. Lou and his group of fellow senior citizens have 
adopted an especially breath-taking section of the CDT in Grand County, 
Colorado. For several years they have dedicated a significant amount of 
time and energy to the Trail. They have helped in clearing, signing, 
trailhead and fence building, just about every aspect of trail 
maintenance. Steve and Lou have been recognized as Volunteers of the 
Year by the CDTA.
    <bullet> LOur success in gaining private sector financial support 
should also be mentioned. We have raised well over a three million 
dollars from private foundations and corporations like the Fausel, 
Richard King Mellon, Gates Family, Amgen and Great Outdoors Colorado 
Foundations and REI (Recreational Equipment Inc.), L.L. Bean, Kelty, 
Vasque, Vibram, Coleman, Jansport, Eastern Mountain Sports and a myriad 
of other have that have provided us with essential funds to help our 
organization grow. We also have received contributions from well over 
3000 individuals.
    <bullet> LWe also have been fortunate in getting assistance from 
dozens of other local and national outdoor recreation organizations. 
The Backcountry Horsemen of America have been especially key to our 
success in getting the Trail built and maintained in remote locations. 
The Partnership for the National Trail System, the Colorado Mountain 
Club, Volunteers for Outdoors Colorado, the Colorado Trail Foundation, 
New Mexico Mountain Club, New Mexico Volunteers for the Outdoors, the 
Montana Conservation Corps, the National Outdoor Leadership School, the 
Helena Outdoor Club, American Hiking Society, and the International 
Mountain Biking Association are just a few examples of organizations 
that have joined in this effort to build and maintain the ``King of 
Trails.''
    <bullet> LThe CDTA took part in several of the Forest Service 
Recreation Agenda public meetings last year and we are pleased with the 
final document produced. The key now, obviously, is getting the 
necessary support internally for the fulfillment of that shared vision.
    I think you will agree that the support and desire of the United 
States Congress, the American people, both those near to the Trail and 
from across the country, and at least some of the land managers is 
strong, so what are the challenges?
    <bullet> LMoney to the ground: Part of our frustration, and that of 
many people, both in and out of the Forest Service, has been the 
siphoning off of precious resources at many levels. So called ``Taps'' 
taken at virtually every level of the agency result in a relatively 
minimal trickle down to the field.
    <bullet> LAccountability: For the last few years we have been 
successful in getting substantial ``add-on'' earmarks to the Forest 
Service budget specifically for the CDT. We have been included in the 
agency's allocation discussions and feel that significant progress is 
being made in prioritizing Trail projects. We have also have found, in 
some instances, that some districts are unable to track how those 
additional funds have been utilized. Needless to say, this can be 
extremely frustrating.
    <bullet> LPersonnel in the field: As the efforts of the CDTA and 
many other volunteer groups become more and more successful we have the 
potential of making a tremendous impact on the deteriorating recreation 
infrastructure on our public lands. However, we have found it to become 
increasingly difficult to gain the necessary agency supervision and 
enthusiasm for working with the volunteers.
    <bullet> LAging workforce: A related concern has to do with the 
demographics of the Forest Service personnel. Much of the hard earned 
expertise and experience in critical backcountry skills is being lost 
to an aging workforce that is on the brink of (or already has) retired. 
We must rebuild the agency's ability to maintain recreation 
infrastructure, much of which was created by the Civilian Conservation 
Corps in the 1930s.
    <bullet> LInter-Agency Collaboration: The Secretary of Agriculture 
and ultimately the United States Forest Service has the overall 
responsibility for the completion and maintenance of this National 
Scenic Trail. The Trail does, however, travel through three National 
Parks, one National Monument and eight Bureau of Land Management 
Resource Areas. Getting all of these jurisdictions on the same page has 
been, shall we say, a challenge. Increasing interagency cooperation to 
minimize frustrations is another obstacle we must overcome. Involving 
all the agencies in the completion of the CDT Ten-Year Plan has been a 
great tool to develop that collaboration.
    <bullet> LAnother important area that needs attention is what many 
would call a lack of leadership. Making volunteerism and partnerships 
with non-profits and corporations looking for a way to ``give something 
back'' has been lacking and should be an important part of the agency's 
agenda.
    I would like to conclude by saying that many of the people that 
count on us to be their voice for the Continental Divide Trail are 
frustrated, but ultimately hopeful that we can be part of a team that 
will insure the future of recreation on our public lands. Thank you 
again for giving us this opportunity to be heard.
Trail History and Background
    Thirty years ago Congress devised the framework for developing a 
nationwide system of trails in America by passing the National Trails 
System Act. The Continental Divide Trail is the backbone of today's 
system of nineteen Congressionally designated national scenic and 
historic trails. In 1978 Congress designated the Continental Divide 
National Scenic Trail due to its magnificent and unique character. When 
completed, the Trail will stretch 3,100 miles and travel from Canada to 
Mexico through some of the most beautiful and challenging country in 
the world. The route goes through 25 National Forests, 13 Wildernesses, 
3 National Parks, 1 National Monument and 8 Bureau of Land Management 
resource areas. The CDT represents the most scenic, challenging and 
culturally diverse trail in America. Traveling along this corridor is 
the ultimate journey for any outdoors person. Knowing that this 
precious resource is protected is just as important for many others. 
Due to limited budgets and resources, the federal agencies have not 
been able to allocate sufficient funding and resources to complete the 
Trail. In Colorado, approximately 90% of the nearly 760 miles is 
usable, but much of that trail is in very poor condition and not up to 
National Scenic Trail standards. The CDTA has identified 526 miles of 
the CDT in Colorado that need either planning, new construction, 
reconstruction, relocation out of sensitive areas and off roads, and/or 
sufficient marking. In addition, the CDTA is targeting areas along the 
CDT that may experience heavy use and would benefit from interpretive 
signing.
Continental Divide Trail Alliance
    The Continental Divide Trail Alliance (CDTA) was formed in 1995 to 
assist the federal land management agencies in the completion, 
management and protection of the Trail. The CDTA is a 501(c)(3) 
nonprofit organization with over one thousand members. Increasing 
pressures from development, rising land costs, popularization of the 
West, and decreases in federal funding are threatening the completion 
of the Trail. It was imperative that the CDTA be established to 
increase the public's awareness and involvement in completing one of 
the most unique and scenic ecosystems in the world.
CDTA Mission Statement
        ``To construct, manage and preserve a public back country trail 
        along the full length of the Continental Divide from Canada to 
        Mexico and to link its significant resources with the 
        assistance of volunteers and public and private partnerships. 
        To develop an appreciation of and enjoyment in America's 
        natural lands through education and the opportunity to 
        experience the Continental Divide National Scenic Trail.''
Continental Divide Trail Alliance Goals and Objectives
    To build, maintain, manage and protect the Continental Divide 
National Scenic Trail by:
    <bullet> LDeveloping an efficient and effective membership 
organization that fulfills the needs of the public and supports the 
federal land management agencies.
    <bullet> LCoordinating with local and regional grassroots groups, 
individuals, private businesses and government agencies to plan, 
design, build, maintain and manage the CDT.
    <bullet> LIncreasing the visibility of and developing a 
constituency for the CDT.
    <bullet> LDeveloping and implementing a fundraising plan for the 
CDT.
    <bullet> LEducating the public about environmental and recreational 
ethics, and the historical, cultural and recreational significance of 
the CDT.
    <bullet> LEncouraging the public to become more actively involved 
in land management decisions.
Current Programs and Activities
    Current CDTA programs and activities include:
    <bullet> LCDTA Adopt-A-Trail Program. Key to long-term protection 
of the CDT is a fully developed maintenance and reporting program. The 
CDTA is recruiting and coordinating volunteers to maintain segments of 
the CDT.
    <bullet> LImplementation of the CDT Ten-Year Strategic Plan. An 
action plan to complete the CDT by the year 2008 was initiated by the 
CDTA and adopted by the land managers in 1998. The CDTA coordinated 
land manager workshops to identify CDT related issues, projects & 
estimated costs.
    <bullet> LVolunteerism. Volunteers are key to the development and 
maintenance of the CDT. The CDTA is coordinating sixteen volunteer 
projects in 1999 to work on 60 challenging miles of the Trail. Others 
will help us scout new routes and work with the land managers. In 
addition, we are working with many clubs along the Trail to perform 
trail work. The CDTA expects volunteer labor to exceed $200,000 in 
1999.
    <bullet> LTrail Construction and Maintenance. The CDTA works with 
the land managers to identify and rank CDT needs each year. Needs range 
from building new trail to purchasing rights-of-ways. The CDTA raises 
money, recruits volunteers & works on issues to benefit the Trail.
    <bullet> LCDT Long Distance Planning Guide. To better serve CDT 
users, the CDTA wrote and published a planning guide booklet 
specifically to educate and inform the public about the CDT. This 
publication will help to ensure safe and enjoyable experiences.
    <bullet> LAdvocacy Work. The CDTA travels to Washington DC at least 
twice a year to meet with land managers and to increase Congressional 
support and funding for the Trail. The CDTA requested a $2.5 million 
add-on earmark from Congress to the Forest Service budget in 2002. This 
request is being supported by Congressman McInnis.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Ward.
    Panel, I would also like to thank you. I understand that 
later this afternoon the practitioners will be meeting with 
some of our staff, and I look forward to hearing your 
suggestions in more detail.
    As you understand, when we have the kind of limitations we 
do on Committee hearings, that's why we have to rush through. 
Mr. Ward started at a rate of about 30 words a minute and ended 
up at about 300 words a minute toward the end.
    [Laughter.]
    You know, in my comments, I would just like you to know 
that with a little more detail. But in Colorado we put together 
several major projects last year that was based--Mr. KenCairn, 
your pin there that has ``they'' with a red cross through it, 
that's exactly the practice that we followed out there. In 
Colorado Canyons, we brought all of the different users 
together. We brought the ranching community. We were able to 
create 88,000 acres of wilderness, while at the same time 
preserving through a national conservation area the multiple 
use of lands that surround the wilderness and, on my own 
personal concern, preserve the water rights for the Colorado 
people that held the rights.
    We did the same thing, as I mentioned earlier, with the 
Spanish Piece, and we did the same thing with the Great Sand 
Dunes. Assisting me in those efforts was my colleague sitting 
to my left, Mr. Udall. So we also unified across the party 
aisle, which is important. So what you said in your testimony 
is well-taken. It's impressive, and it works.
    With that, I will go ahead and yield to my colleague for 
any questions or comments that he may have.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. I wanted to 
add my voice to that of Mr. McInnis', when he commented on the 
impressive nature of your testimony and the efforts that all of 
you are undertaking in your communities.
    There is a Chinese symbol for a crisis, and when you break 
it apart, one part of that symbol is the symbol for danger, and 
the other is for opportunity. I think we have enormous 
opportunity in these communities of which you speak. I know 
this Committee is interested in doing all it can to work with 
you, to enact policies that would make the vision you all 
presented us become real.
    Maybe I would start with Mr. KenCairn. I was interested in 
your discussion of the suspicions that many have about the role 
of commercial motives in forest restoration work. I notice you 
suggest a special task force or advisory committee to address 
this.
    Could you elaborate on your idea, and if you have any 
examples of where you think this approach might be helpful, 
please share that with us as well.
    Mr. KenCairn. Yes, thank you.
    As a veteran of collaboratives for over 10 years now, I 
really believe that the core conflict that we're dealing with 
right now is this question about commercial motives. I think 
what's important about this issue, and I think the reason the 
zero cut movement and others have surprised many of us in their 
power, is because there's a pervasive sense in the larger 
public that the economy is sort of out of control in many areas 
of our lives.
    I think that we have not been very successful in 
demonstrating to those with these concerns that we understand, 
that we hear that issue very clearly, that there's a long 
legacy of maximizing timber cuts, there's a legacy of dropping 
wages in rural communities because of lowest-bidder contracting 
approaches.
    The first step we need to take is demonstrate to our 
critics that we hear that issue very clearly. The second step 
is begin offering specific, tangible safeguards that can do 
something about that. The first possible safeguard is scale, 
that we look at supporting the very types of enterprises that 
we're talking about, things that require only a million to 
maybe even five million board feet a year, biomass 
opportunities that are at the scale of kilowatts to one 
megawatt, not 50 to 100 megawatts, facilities that create 
demand for hundreds and hundreds of thousands of tons of 
material. So scale is the first.
    Second is a whole range of other things that we really 
haven't looked at yet in detail. But things like perhaps we 
should require those depending on Federal resources to amortize 
their equipment over shorter timeframes, so that they are not 
depending on longer returns to make their investments pay for 
themselves.
    I don't know what all those different safeguards would be, 
but what I'm suggesting is that we need to form some kind of a 
group, the best and brightest of all those who are concerned 
about this issue, to profile all the safeguards we could put in 
place. Otherwise, I think those who have this concern will 
continue to capture the public's concern about this issue, 
until we offer very specific responses to it.
    Mr. Udall of Colorado. Those are very enlightening 
comments.
    I would add that I hear, and I know Congressman McInnis 
hears, comments from people who care deeply about the forest, 
but from different points of view. When you hear someone say 
``forest health'', the folks who would be labeled 
environmentalists think that means clear-cutting, a return to 
the old ways of doing things. When you hear the word 
``ecology'' used, ecological principle, sustained management of 
our forests, I think some of the old traditional interests 
think that means hands off, we're never even going to enter the 
forest. Somehow we have got to find some common ground and you 
have brought up some great suggestions. We would like to see 
what we can do to work with you and others to put some of these 
additional ideas on the table.
    I want to ask Ms. Enzer a question that's a little more 
specific. You mentioned in your written testimony that local 
contractors purchase special equipment designed to handle small 
diameter trees, but that few of these projects have been 
brought to fruition.
    Why is that the case?
    Ms. Enzer. Why have the projects not been brought to 
fruition?
    Mr. Udall of Colorado. Yes.
    Ms. Enzer. I think there are several reasons for that. I 
think that some of the contracting mechanisms, when 
collaborative groups get together, agree on the restoration 
goals, they agree that restoring ecological integrity is their 
main focus. Then when they try and use existing contracting 
authorities to implement that, there isn't a good fit. It does 
sometimes have to do with scale, the size of the operations, 
the kind of equipment being used, but also sometimes how to pay 
for the project.
    With the stewardship contracting pilots, there are some new 
authorities that people are testing, and some of those 
authorities relate to how to pay for the project. But there are 
other authorities that aren't funding mechanisms, like best 
value, that would really help get these projects on the ground, 
going and committed.
    I think there is a lack of clarity on how to use the 
existing authorities, as well as on how to use the new 
authorities that are also in Title IV of the Fire Plan. So I 
think we need Congress' help to work with the agency and to 
support them in understanding how to use their existing 
authorities, but also, when new ones are offered, that they get 
some technical assistance to do that.
    I believe that Mr. Phillips referenced that this morning, 
that there's a tool kit that the Washington office has been 
working on for many years, and the release of that tool kit 
would be of a great benefit to communities and the contracting 
officers in getting those projects completed on the ground.
    Mr. Udall of Colorado. Thank you.
    Mr. Chairman, I yield back the time I don't have. The 
Chairman has granted me additional time.
    I wanted to ask Mr. Brendler a question. Your testimony 
discussed the need for greater rural development emphasis in 
the Forest Service. Can you expand on that, how you perceive 
the role of the Forest Service with respect to rural 
development, and some of the mechanisms or programs the agency 
might use to promote those outcomes? Mr. Brendler. The role of 
the Forest Service, as I understand it, in rural development 
has been one that's been, in a sense, related to the work that 
they have been doing since their inception. It became explicit 
in 1990 in the strategic plan and the development of the rural 
development programs, the Economic Action Program being one of 
them, that we support.
    I think those have been focused on capacity building, 
realizing that, as a number of my co-panelists have mentioned, 
that what we need is to achieve the conditions in the forest 
that we would like to see, that healthy communities can 
reinforce that.
    I think an interesting point about the Forest Service's 
role in rural development is the structure of delivery, which I 
think is unique to it and a real advantage, as we see it. It 
has, in a sense, branch offices. It has over time developed a 
wealth of knowledge. You know, we heard about the Forest 
Products Lab, rural development staff and so forth, that are 
able to help rural communities. I think we would just like to 
see that expanded. In addition to having those field offices, 
it is also able to draw on national resources as a national 
agency.
    One issue that comes up a lot is that other programs within 
the Department of Agriculture have rural development programs. 
I think we need to realize that the Forest Service's place in a 
lot of these rural communities, these regional offices, so to 
speak, as well as the specific needs of forest-based 
communities, are unique. I think that does require separate 
investment.
    Mr. Udall of Colorado. I want to give everybody on the 
panel a chance, if I don't run out of time.
    Mr. Madrone, I apologize if I mispronounced your name. But 
you talked about the Jobs in the Woods Program. Suggest how we 
might broaden that or replicate that approach in other parts of 
the country, if you would. Mr. Madrone. It has worked extremely 
well in the Pacific Northwest, which isn't to say there aren't 
some problems. But in the last 6 year's experience of 
completing many hundreds of projects in those three States, we 
have learned a lot, both within the Forest Service and in BLM, 
and there are other Federal agencies working with this, the 
National Park System. We're working with these authorities with 
state agencies as well.
    The problems that have been identified, people are now 
starting to tackle those, with the tool box, with training, and 
we're working in the private sector to bring that through the 
community end of it.
    I believe that by removing those remaining barriers, by 
creating a little more flexible participating agreement 
authorities, for instance, we have the essence of a very 
successful program that you all supported in the Pacific 
Northwest.
    We heard a lot of complaints from people all over the 
country. Our network is nationwide. People want this. They want 
the opportunity to have Jobs in the Woods in their area. So I 
believe the model is there, we know what some of the barriers 
are, and we need to remove those. We're ready to take it 
nationwide. It's going to take funding and support consistently 
to make that happen, but the community is in place and ready to 
help you.
    Mr. Udall of Colorado. Mr. Ward, Mr. McInnis implied you 
always have the last word. Would you like to add any additional 
comments to the ones you made earlier that would help the 
Committee further understand how we can continue to forward 
these efforts? Mr. MsInnis. Mr. Udall, let me just correct one 
comment. Paula Ward always has the last word.
    [Laughter.]
    She said to say hi.
    I just want to reinforce that what we're seeing is a huge 
outpouring of desire of the American people to be a part of the 
solution, a desire to get out there and help the land managers, 
the Forest Service, do the job that they have become strapped 
for a variety of reasons and are unable to do, due to a degree 
that we feel is appropriate, and not just on the Continental 
Divide Trail, though that's our specific area of interest, 
throughout the country.
    We want to give them the support that they need. I think we 
need this Committee's help to reinforce your desire to see that 
need being met.
    Mr. Udall of Colorado. I want to thank the Chairman for the 
additional time.
    One last comment to Mr. KenCairn. I thought you were very 
articulate, even eloquent, when you talked about the important 
role that rural communities can and should and must play. I 
think if we could hold that in our mind's eye as we begin to 
work more in these areas, we could be very successful and in 
the process support those communities for all that they have 
given to our culture, our value system. Your optimism that 
these communities can thrive with this new regime and this new 
approach has given me additional hope as well. So thank you 
very much.
    Mr. McInnis. Mr. Udall, I notice a very young guest has 
just entered the room. Maybe you would like to introduce that 
fine young lady and her escort.
    Mr. Udall of Colorado. I just noticed that my daughter, 
Tess Udall, and my wife, Maggie Fox, are here. Tess, do you 
want to stand up and let everybody see you?
    Mr. McInnis. Mr. Udall and I both have something in common, 
in that our daughters are both named Tess.
    Let me just real quickly, to wrap this up--and if you will 
cooperate with me, I would appreciate it. But if we could start 
with you, Mr. Brendler, if you could, in just a couple of 
sentences, tell us what you would like us to take away from 
this Committee. Let's go right down the line on the panel and 
then we can conclude.
    Mr. Brendler, if you would proceed.
    Mr. Brendler. I would like to leave you with the idea that 
communities do play a critical role in forest management. They 
are often overlooked and they need to be at the table. I think 
it is all of our jobs to invest in their capacity to solve 
problems.
    Ms. Enzer. I guess I would just leave you with the idea 
that we need a consistent program of work that is focused on 
restoration and maintenance, if our communities and forests are 
to be healthy.
    Mr. KenCairn. I believe scale matters, and that it's 
important to create economic safeguards, and that it's your job 
to create adequate safeguards to protect our communities and 
our forests from unrestrained economic interests. Mr. Madrone. 
Incentives are the solution to prevention, and I want to submit 
this document to you for the hearing, a document for financial 
incentives for stewardship of nonindustrial timberland. Mr. 
Ward. I guess I would just leave you with the thought that last 
year we participated in a number of summits that addressed the 
recreation agenda of the Forest Service, and they produced a 
document, the recreation agenda. I would just implore this 
Committee to work with the Forest Service to see that this is 
implemented, because it is the result of as lot of work, a lot 
of interest from communities, and a wide spectrum of people. 
The tools are there. We just need additional emphasis.
    Mr. McInnis. Thank you.
    I would like to thank Ms. Collins and Mr. Phillips of the 
Forest Service on panel one for attending, and Mr. Brendler, 
Ms. Enzer, Mr. KenCairn, Mr. Madrone and Mr. Ward, thank you 
very much. We look forward to your meeting this afternoon.
    Obviously, these partnerships are very important. In my 
opinion, having experienced and worked through them with some 
groups that were from very opposite sides of the spectrum, and 
seeing the success at the end, they work, they work very 
efficiently, and everything from scale to saving our rural 
communities is vital.
    I also thank my colleague, Mr. Udall, and also to let any 
of those who are new to the Committee hearing process, you have 
to understand that, with the conflicts we have, the lack of 
Committee attendance is not lack of interest. It is numerous 
conflicts. In fact, I rarely have a Committee hearing where I 
don't have another Committee hearing that conflicts with it. So 
please take that into consideration.
    Again, thank you very much. The Committee stands adjourned. 
It's 12 noon.

    [Additional material supplied for the record follows:]

    [A paper prepared by David C. Schen, Utah Division of 
Forestry, Fire & State Lands, and Kim Kostelnik, New Mexico 
Forestry Division, submitted for the record follows:]
              FOUR CORNERS SUSTAINABLE FORESTS PARTNERSHIP
  prepared by david c. schen, utah division of forestry, fire & state 
         lands, and kim kostelnik, new mexico forestry division
BACKGROUND
    A forestry based initiative was conceived in 1997 under the 
leadership of State Foresters from New Mexico, Utah, and Colorado. The 
structure of the regions forest resources has been heavily impacted by 
extractive industries during the settlement period and nearly a century 
of effective fire suppression in fire dependent ecosystems. The State 
Foresters saw, throughout the Four Corners region, increasing risks for 
catastrophic fire and insect outbreaks in forest ecosystems as well as 
a declining capacity in communities to provide services and economic 
opportunities associated with forest restoration and maintenance needs 
on the region's private and public lands. These conditions exist across 
social and jurisdictional boundaries in the four corners states of New 
Mexico, Colorado, Utah, and Arizona.
    There was a need to focus national attention and resources on 
issues common throughout the region. A coalition of diverse interests 
formed to identify clear goals for the Initiative and seek 
Congressional support for associated programs. In Federal fiscal year 
2001, Congress appropriated $2,000,000 to the U.S. Forest Service, 
State and Private Forestry, Economic Recovery & Rural Development 
Programs to further the Initiative. These funds go toward community-
based projects and other collaborative efforts which encourage long-
term solutions to both community and forest resource concerns.
GOALS
    1. Merge environmental and economic concerns by linking forest 
restoration and maintenance needs with the production and marketing of 
value-added products.
    2. Strengthen and diversify rural economies through community led 
collaborative stewardship projects that illustrate creative solutions 
to forest restoration needs.
    3. Facilitate the development of an information sharing and 
technical assistance network among businesses, local leaders, non-
profit groups, tribal interests, state and federal agencies, and 
individuals concerned with forests.
    4. Develop value-added products from small diameter timber and 
other non-traditional forest resources and identify markets for those 
products.
    5. Reduce the loss of natural resources to catastrophic fire, 
insect, and disease by restoring at-risk forest ecosystems.
OUTCOMES TO DATE
    1. Regional Assessment. A regional assessment was completed by the 
Forest Trust in cooperation with Northern Arizona University. The 
assessment included resource, economic, and social elements.
    2. Round Table. The Four Corners Steering Committee sponsored a 
Sustainable Forestry Round Table in Taos, New Mexico in August 1999. 
The purpose was to encourage and support participation in this 
important strategic event by local leaders and other stake holders from 
the four corners region. Recommendations by various working groups at 
the Roundtable are being used to guide the Partnership's activities.
    3. Demonstration Protects. The steering committee has solicited a 
third round of demonstration project proposals. In the second round, 
forty-six proposals were received. Of those, eighteen demonstration 
projects were awarded grants. $670,000 was committed to these projects. 
Twenty-eight additional projects were proposed but unfunded due to lack 
of funding. The forty-six proposals submitted requested $2,409,799 and 
committed $4,806,417 in matching funds.
    4. Forest Products Utilization. A Utilization Specialist was hired 
by the partnership to provide forest products utilization technical 
assistance to primary and secondary manufacturers in the Four Corners 
Region. Tim Reader came on board in June 2000 and will operate out of 
the Durango office of the Colorado State Forest Service. The 
Partnership is also collaborating with the national Network of Forest 
Practitioners to provide other forms of technical assistance to forest 
based businesses in the region.
    5. Straw Planning. The Steering Committee engaged a consultant to 
guide us through a strategic planning process. This process is 
scheduled to be completed in 2001.
    6. Public Relations. The Denver based firm of Kostka-Gleason 
Communications, Inc. has been hired to develop and implement a public 
relations campaign that focuses on the value of sustainably managed 
forests to both our environment and rural communities. A central 
feature of this campaign will be success stories from the Community-
Based Demonstration Projects administered by the Partnership. A desired 
outcome of the campaign is that people nationally and locally, begin to 
understand and support sustainable forest management as a critical link 
to economic, social, and ecology well-being.
    7. Revolving Loan Fund. Many communities rely on nearby forest 
lands for their economic health but need more technical, marketing and 
financial resources to adapt to the new opportunities in forest-based 
communities. The Rocky Mountain Home-Based Business Association is 
assisting the Partnership with a program to provide capital lending for 
the creation, retention and expansion of jobs in specific areas in the 
four corners region. Loans would be available under this program for 
start-up and existing businesses. Credit and collateral requirements 
are generally less stringent than those of traditional lenders. This 
loan fund will be offered to finance a gap in the business community 
with the intent of creating new opportunities for partnerships through 
a combination of public and private financing, thus lessening the risk 
for the primary lender. These funds will be offered through existing 
Revolving Loan Funds in each state.
                                 ______
                                 
    [A paper prepared by David C. Schen, Utah Division of 
Forestry, Fire & State Lands, and Ruth Steed, TreeUtah, 
submitted for the record follows:]
                   UTAH COMMUNITY FORESTS PARTNERSHIP
  prepared by david c. schen, utah division of forestry, fire & state 
                    lands, and ruth steed, treeutah
BACKGROUND
    In 2002, Salt Lake City and other Utah Communities will host the 
Olympic Winter Games. These games will greatly impact the residents and 
resources of Utah. With the assistance of Senator Robert Bennett, 
Congress appropriated $500,000 for tree- planting projects in local 
communities at venue and gateway sites. The funds are being distributed 
through the USDA Forest Service, State and Private Forestry, Urban and 
Community Forestry Program, and delivered by the Utah Department of 
Natural Resources, Division of Forestry, Fire and State Lands.
PARTNERSHIP GOALS
    Utah communities, some of which serve as gateways to Olympic venue 
sites, provide opportunities to demonstrate arboriculture, tree 
planting & maintenance practices, and the stewardship of urban 
resources. The Partnership hopes to reach the following goals:
    1. Develop a tree planting program in association with the 2002 
Winter Olympic. Games that will serve as an Olympic legacy for Utah 
(Salt Lake) and which will serve as a model for future Olympic host 
cities.
    2. Demonstrate arboriculture, tree planting & maintenance practices 
in gateway communities and at Olympic venues.
    3. Engage residents and community leaders to expand their awareness 
of the value of urban forest resources and the importance of these 
resources in sustaining healthy, viable communities.
    4. Encourage private investment in establishing healthy urban 
forests.
THE COMMUNITY FOREST PARTNERSHIP TEAM
    <bullet> LTreeUtah
    <bullet> LUtah Department of Natural Resources, Division of 
Forestry Fire and State Lands
    <bullet> LUSDA Forest Service, State and Private Forestry
    <bullet> LUtah Office of Energy Services, Cool Communities Program
    <bullet> LUtah Nursery & Landscape Association
    <bullet> LUtah Community Forest Council
HOW IT WORKS
    The Utah Community Forest Partnership (Utah CFP) was formed to 
facilitate tree plantings and involves seven different federal, state, 
and non- profit entities. Through costshare grants, Utah CFP is funding 
community tree plantings, creating green buffers, shade, parks and 
trails, wildlife habitat, and beautifying community entrances. The Utah 
CFP also provides technical assistance, training, and education to 
enable communities to care for their trees after planting. TreeUtah, a 
non-profit organization, works with local communities to coordinate 
volunteer efforts and carry out community tree plantings projects. The 
Utah Community Forest Partnership is an excellent example of private-
public partnerships working to serve the citizens of Utah.
MAKING A DIFFERENCE IN UTAH COMMUNITIES.
    City growth, development and urban sprawl all take their toll on 
our trees. When a city loses trees, it loses more than beauty. Publicly 
owned trees are part of a community's infrastructure just as are 
streets, sidewalks, sewers, public buildings and recreational 
facilities. When communities plant trees they get benefits that last 
for over 30 years. Because trees:
    <bullet> LReduce pollution.
    <bullet> LConnect people with the natural environment.
    <bullet> LReduce crime.
    <bullet> LCreate homes for wildlife.
    <bullet> LProvide shade.
    <bullet> LSave energy.
    <bullet> LIncrease property values.
OUTCOMES TO DATE
    <bullet> LTree-Planting Projects. Thirty-five community based 
projects have been supported by grants from the Utah CFP
    <bullet> LVolunteers Recruited. TreeUtah and community leaders have 
recruited 2,334 citizen volunteers to plant trees on city streets and 
parks.
    <bullet> LVolunteer Hours Logged. These volunteers have logged over 
8,269 hours of service under this program.
    <bullet> LTrees Planted. Federal, community and private funds have 
helped support the purchase of 2,491trees for gateway and other 
partnership projects.
    <bullet> LLeveraged Funds. The partnership has leveraged 2.5 
dollars for every dollar provided by Congress.
VIEWPOINTS FROM COMMUNITY PROJECTS

West Valley City
    <bullet> LPlanted 23 trees to enhance beauty of two gateways and 
planted 28 trees at the E-Center.
        ``We are thrilled to work with the Utah CFP to showcase the 
        resources, beauty and pride in our community. This planting has 
        engaged every aspect of West Valley City's diverse 
        community.''--Kevin Astill, Parks and Recreation Director

Kearns
    <bullet> L503 volunteers joined together to plant the new tree-
lined gateway into their community
        ``Utah CFP has been a spark which formed a fire of community 
        pride, unity and vision. They provided the resources to make 
        our dream of turning a street side into a beautiful forest in 
        an urban setting. We cannot wait to welcome the world to Kearns 
        during the 2002 Olympic Winter Games.''--Eric Hutching, 
        Economic Development Director for Kearns

West Jordan
    <bullet> LPlanted 30 trees on the Regional Soccer Complex and 
planted 20 along neighborhood streets.
        ``This project created a sense of camaraderie, community 
        service and civic pride in every volunteer. The Utah CFP has 
        made an important and lasting difference in our community.''--
        Julie Hess, West Jordan City Forester

Murray City
    <bullet> LPlanted 40 trees along the Jordan River Parkway to 
restore wildlife habitat.
         ``The Utah CFP created a buffer between a highway and a 
        neighborhood, making a pleasant park-like atmosphere for 
        wildlife and recreation.''--Kim Sorenson, Murray City Parks 
        Superintendent

South Jordan and Sandy, 10600 South at Interstate 15
    <bullet> LPlanted over 250 trees to create inviting gateways.
        ``We couldn't have done this without the help and leadership of 
        the Utah CFP. This cooperative effort will benefit the visitors 
        and residents of our two communities.''--Scott Earl, Assistant 
        Director of Sandy City Parks and Recreat
                                 ______
                                 
    [Whereupon, at 12 noon, the Committee adjourned.]


</pre></body></html>
